                                                                                                                      S o c i a l S e c u r i t y A d m i n i st r at i o n
                                                                                                                   O f f i c e of t h e I n s p e c tor Ge n e r a l




                                                                                                              Semiannual Report to Congress
                                                                                                                      October 1, 2008 – March 31, 2009




                                                                         Report Fraud, Waste, and Abuse

                                                                         1–800–269–0271




                                                                            Social Security Administration
                                                                              Oﬃce of the Inspector General
                                                                                SSA Pub. No. 85-007



09-445-OIG_SARCspring_cover_alternate.indd Spread 1 of 2 - Pages(4, 1)                                                                                                        4/24/2009 5:11:52 PM
                                                         S ocia l Secu r it y A dmi n istr ation                 How to R eport Fr au d
                                                         O ffice of the Inspector Gener al

                                                                                                     The SSA OIG Fraud Hotline offers a means
                                                                                                     for you to provide information on suspected
                                                                         Mission Statement
                                                                                                   fraud, waste, and abuse. If you know of current
                                             By conducting independent and objective
                                                                                                     or potentially illegal or improper activities
                                            audits, evaluations and investigations, we
                                                                                                        involving SSA programs or personnel,
                                          inspire public confidence in the integrity and
                                                                                                          we encourage you to contact the
                                            security of SSA’s programs and operations
                                                                                                               SSA OIG Fraud Hotline.
                                           and protect them against fraud, waste, and
                                          abuse. We provide timely, useful and reliable             Call . . . . . . ---
                                            information and advice to Administration                Write . . . . . Social Security
                                                officials, Congress and the public.                                 Administration Office of the
                                                                                                                    Inspector General Attention: SSA
                                                                         Vision and Values
                                                                                                                    Fraud Hotline
                                             We strive for continual improvement in                                 P. O. Box  Baltimore, MD 
                                           SSA’s programs, operations and management
                                           by proactively seeking new ways to prevent               Fax . . . . . . . --
                                          and deter fraud, waste and abuse. We commit               Internet . . www.socialsecurity.gov/oig
                                            to integrity and excellence by supporting
                                             an environment that provides a valuable
                                            public service while encouraging employee                To obtain additional copies of this report,
                                            development and retention and fostering                         please visit our website at
                                                     diversity and innovation.                              www.socialsecurity.gov/oig
                                                                                                                    SSA Pub. No. -




09-445-OIG_SARCspring_cover_alternate.indd Spread 2 of 2 - Pages(2, 3)                                                                                    4/24/2009 5:12:00 PM
                                                             Semiannual Report to Congress




   A Message from the
  Inspector General
  In 1935, as President Franklin Roosevelt signed the Social
  Security Act into law, he declared that it “represents a
  cornerstone in a structure which is being built...to lessen
  the force of possible future depressions. It is, in short, a
  law that will take care of human needs and at the same time
  provide the United States an economic structure of vastly
  greater soundness.” In 2009, we are again facing challenging
  economic conditions. And yet, our Social Security system
  remains a critical safety net for millions of Americans, the
  most vulnerable among us.
  The Social Security Administration Oﬃce of the Inspector General has as its core mission
  protecting and improving the Agency and its programs, needed now more than ever. Our 575
  dedicated employees inspire conﬁdence in the integrity and security of those programs, and
  work to protect them against fraud, waste and abuse.
  In this Semiannual Report to Congress, covering the period October 1, 2008 through March 31,
  2009, I am pleased to present to the 111th Congress our most signiﬁcant audit, investigative, and
  legal accomplishments. Even during times of upheaval, we have maintained a focus on persistent
  management challenges like the disability backlog, as well as on high-priority investigations,
  such as those targeting representative payees who misuse the beneﬁts entrusted to them.
  Also during this reporting period, the Congress passed the American Recovery and Reinvestment
  Act of 2009, which provides substantial funds to the Social Security Administration, as well
  as funds for my oﬃce to provide oversight. In little more than 60 days, I have led this Oﬃce
  to develop an aggressive oversight plan. We have already met with Agency oﬃcials to discuss
  our plan and have begun related audit work.
  At that signing in 1935, President Roosevelt also remarked,“The civilization of the past hundred
  years, with its startling industrial changes, had tended more and more to make life insecure.” The
  74 years since that day have also brought with them startling changes, and yet Social Security’s
  programs have stood the test of time, providing needed beneﬁts for many who might otherwise
  falter. As always, my oﬃce will continue to partner with the Social Security Administration
  and the Congress to strengthen those programs and protect them for future generations.

   S
  Patrick P. O’Carroll, Jr.
  Inspector General




October 1, 2008–March 31, 2009                                   Message from the Inspector General    •   1
                                                                           Semiannual Report to Congress




                     Social Security Administration
                     Office of the Inspector General




       Contents
          A Message from the Inspector General......................... 1
          Executive Summary ...............................................................5
          Introduction to Our Organization................................7
          Impact .........................................................................................9
          Value......................................................................................... 21
          People ....................................................................................... 31
          Reporting Requirements .................................................. 35
          Appendices ..............................................................................37
          Glossary of Acronyms ....................................................... 51




October 1, 2008–March 31, 2009                                                                                Table of Contents •   3
                                                            Semiannual Report to Congress




Executive Summary                                Our audit work over the past 6 months
                                                 included a review of SSA’s average overall
This report presents the significant             processing time for disability claims from
accomplishments of the Social Security           the date of application to the date of denial
Administration (SSA) Office of the               or the date beneﬁts were paid; as well as a
Inspector General (OIG) from October 1,          Quick Response Evaluation of the sources of
2008 through March 31, 2009. The report          erroneous death entries input into the Death
is organized according to three major goals—     Master File. In response to the American
impact, value, and people—set forth in the       Recovery and Reinvestment Act of 2009, our
OIG Strategic Plan: Fiscal Years 2006 – 2010,    auditors provided a detailed plan to the
Fourth Edition.                                  Congressional Committee on Oversight
                                                 and Government Reform which described
Impact                                           our approach to providing the oversight
                                                 envisioned by the legislation, and have begun
We work to have a positive impact on SSA         the audit process by meeting and discussing
programs and operations by enhancing their       our plan with SSA oﬃcials.
integrity, eﬃciency, and eﬀectiveness. During
this reporting period, we received more than     Value
50,000 allegations from SSA employees,
the Congress, the public, law enforcement        Our organization strives to provide valuable
agencies, and other sources. Our agents closed   products and services in a timely manner
more than 4,300 criminal investigations,         to Congress, SSA, and other key decision
resulting in over 560 arrests, over 550          makers while sustaining a positive return for
indictments and informations, and more than      each tax dollar invested in OIG activities.
900 criminal prosecutions (which includes        During this reporting period, our auditors
convictions and pretrial diversions) and         identified more than $130.4 million in
civil monetary penalty (CMP) assessments.        questioned costs and more than $320.9
Our Cooperative Disability Investigations        million in Federal funds that could be put
(CDI) Program continues to be one of our         to better use. Highlighted audits include a
most successful initiatives, contributing to     review of SSA’s contract for the Beneﬁt Oﬀset
the integrity of SSA’s disability programs.      National Demonstration project which tests
During this reporting period, our CDI            alternate methods of treating work activity in
program added a new CDI Unit in Little           the Title II disability program to determine
Rock, Arkansas, increasing the number of         whether SSA is receiving the goods and
the CDI Units to 20 located in 18 States.        services for which it contracted.
The eﬀorts of our CDI Units during this
                                                 In the first half of FY 2009, we are
reporting period resulted in more than $119
                                                 reporting over $166 million in investigative
million in SSA program savings.
                                                 accomplishments, with over $24 million in
Our auditors also had a signiﬁcant impact        SSA recoveries, restitution, ﬁnes, settlements,
during this reporting period, issuing 38         and judgments, and over $142 million
reports and making recommendations on a          in projected savings from investigations
wide variety of challenges facing the Agency.    resulting in the suspension or termination of



October 1, 2008–March 31, 2009                                                     Executive Summary •   5
              Semiannual Report to Congress




              beneﬁts. In addition, we participated in multi-    People
              agency investigations that resulted in over $10
              million in savings, restitution, and recoveries    The collective efforts of our employees
              for other agencies. Highlighted investigations     continue to be the driving force behind this
              in this section relate to Social Security number   organization’s success in meeting its mission.
              (SSN) misuse, representative payee fraud, and      We provide an encouraging and rewarding
              other case examples of fraudulent activity for     work experience with the goal of retaining
              the purpose of collecting disability beneﬁts.      these exceptional individuals. OIG leadership
                                                                 fosters an environment where employees can
              During this reporting period, our attorneys        realize their potential through training and
              initiated 164 CMP actions (Section 1129            developmental programs. Each year, OIG
              cases) that involved false statements or           components hold training conferences to
              representations made in connection with            inform their employees about new procedures
              obtaining or retaining beneﬁts or payments         and share best practices. In addition, the OIG
              under Titles II and XVI of the Social Security     Organizational Health Committee conducts
              Act (the Act). Included in our investigative       an annual assessment of employee satisfaction
              accomplishments above is nearly $2.6 million       levels and addresses employee concerns.
              in penalties and assessments that our attorneys
              imposed through our CMP program.




6   •   Executive Summary                                                  October 1, 2008–March 31, 2009
                                                            Semiannual Report to Congress




Introduction to Our                              the economy, efficiency, and effectiveness
                                                 of SSA’s programs and operations. OA
Organization                                     also conducts short-term management and
                                                 program evaluations, and other projects on
The SSA OIG comprises the Immediate              issues of concern to SSA, Congress, and the
Oﬃce of the Inspector General and ﬁve major      general public.
components: the Oﬃces of Audit, Counsel,
External Relations, Investigations, and          Office of the Counsel to the
Technology and Resource Management.              Inspector General
Immediate Office of the                          The Oﬃce of the Counsel to the Inspector
Inspector General                                General (OCIG) provides independent legal
                                                 advice and counsel to the Inspector General on
The Immediate Office of the Inspector            a wide range of issues, including interpretation
General (IO) provides the Inspector General      of statutes, regulations, legislation, and policy
with staﬀ assistance on the full range of his    directives. OCIG also administers the CMP
responsibilities. IO staﬀ provides liaison       program, and advises the Inspector General
with all agencies sharing common interests       on investigative procedures and techniques,
with OIG and ensures coordination with           as well as on the legal implications of audit
congressional committees, SSA, the Social        and investigative aﬀairs.
Security Advisory Board, and the Council of
Inspectors General on Integrity and Eﬃciency.    Office of External Relations
IO includes the Oﬃce of Quality Assurance        The Office of External Relations (OER)
and Professional Responsibility (OQAPR),         develops the OIG’s media and public
which performs two critical functions. First,    information policies, directs OIG’s external
it conducts exhaustive reviews of each of the    and public affairs programs, and handles
OIG’s component oﬃces to ensure compliance       congressional, media, and public requests for
with Federal laws and regulations, Agency        information. OER is responsible for preparing
policies, and relevant professional standards.   OIG publications and presentations to internal
Second, OQAPR conducts thorough and              and external organizations, and coordinating
timely investigations into allegations of        the OIG’s presence at SSA and other
misconduct by an OIG employee.                   Federal events. In addition, OER prepares
Office of Audit                                  the OIG Semiannual Report to Congress and
                                                 congressional testimony, and coordinates
The Office of Audit (OA) conducts and            with SSA’s Oﬃces of Communications and
supervises ﬁnancial and performance audits       Legislative and Regulatory Aﬀairs.
of SSA programs and operations, and makes
recommendations to ensure that program
goals are achieved eﬀectively and eﬃciently.
Financial audits determine whether SSA’s
financial statements fairly present SSA’s
financial position, results of operations,
and cash ﬂow. Performance audits review




October 1, 2008–March 31, 2009                                       Introduction to Our Organization •   7
               Semiannual Report to Congress




               Office of Investigations                          Office of Technology and
               The Oﬃce of Investigations (OI) conducts          Resource Management
               and coordinates investigative activity related    The Office of Technology and Resource
               to fraud, waste, abuse, and mismanagement in      Management (OTRM) provides administrative
               SSA programs and operations. This includes        support to the Inspector General and OIG
               wrongdoing by applicants, beneficiaries,          components. OTRM formulates and executes
               contractors, and third parties, as well as by     the OIG budget, and is responsible for strategic
               SSA employees while performing their oﬃcial       planning, performance reporting, and facility
               duties. This oﬃce serves as the OIG’s liaison     and property management. OTRM develops
               to the Department of Justice (DOJ) on all         and maintains the OIG’s administrative and
               matters relating to the investigation of SSA      management policy and procedures, and
               programs and personnel. OI also conducts          performs human resource support activities.
               joint investigations with other Federal, State,   OTRM also maintains hardware, software,
               and local law enforcement agencies.               and telecommunications networks to support
                                                                 the OIG’s mission. Finally, OTRM manages
                                                                 the OIG’s allegation management and
                                                                 fugitive enforcement programs and Electronic
                                                                 Crimes Division.




8   •   Introduction to Our Organization                                   October 1, 2008–March 31, 2009
                                                             Semiannual Report to Congress




Impact                                                 audits of the funds after they are expended. The
                                                       audit work will assess whether funds were used for
The ﬁrst goal of the OIG Strategic Plan is Impact. authorized purposes and also to identify instances of
We are committed to enhancing SSA’s eﬀectiveness fraud, waste, error, and abuse.
and eﬃciency through our investigative, audit, and
                                                       Our work on our oversight responsibilities has
legal activities. We strive to have maximum impact
                                                       already begun; we have requested SSA provide us a
on SSA’s programs and operations to ensure their
                                                       spending plan for all of Recovery Act funds, and we
continued integrity and reliability.
                                                       met with Agency oﬃcials in March to discuss our
During this reporting period, we completed oversight plan. As Recovery Act funds are available
numerous audits, investigations, and legal initiatives through September 30, 2012, we expect to issue
covering major SSA program and management areas, several reports over the next few years on Recovery
which had a signiﬁcant impact on the detection and Act spending. Initial reports will focus on the steps
prevention of fraud, waste, and abuse. The summaries SSA should take to ensure the correct controls are
presented below are indicative of our work over the in place before expenditures begin. Our subsequent
past 6 months.                                         reports will report on how successful SSA was in
                                                       planning and executing the expenditure of Recovery
Audit Impact Initiatives                               Act funds.

OA contributes to this strategic goal by conducting     Disability Claims Overall Processing Times
and supervising comprehensive financial and             We conducted this review to determine SSA’s average
performance audits and by making recommendations        overall processing time for disability claims decided
to maximize the effective operations of Social          by the disability determination services (DDS),
Security programs. These audits, along with short-      Administrative Law Judges (ALJ), Appeals Council,
term management and program evaluations, focus on       (AC) and the Federal Courts.
those SSA programs and activities most vulnerable
                                                        When an applicant disagrees with the initial
to fraud and abuse.
                                                        disability determination, he or she can ﬁle an appeal
Planned Recovery Act Activities                         within 60 days from the date of being notiﬁed of the
                                                        determination. In most cases, there are four levels of
The American Recovery and Reinvestment Act of 2009
                                                        appeal, including a: (1) reconsideration by the DDS;
(Recovery Act) was signed into law by President
                                                        (2) hearing by an ALJ; (3) review by the AC; and
Obama on February 17, 2009. SSA’s responsibilities
                                                        (4) review by the Federal Courts.
under the Recovery Act include replacing the National
Computer Center, dedicating additional resources to Based on our sample, we determined the average
the processing of disability and retirement workloads, overall processing time for disability claims completed
and issuing a one-time payment of $250 to nearly 55 in Calendar Year 2006 from the date of application
million Social Security and Supplemental Security to the date of denial or the date beneﬁts were paid at
Income beneﬁciaries.                                    time of allowance (including any back payments).
As part of the legislation, OIG was provided $2 131 days for cases decided at the DDS level
million for oversight of SSA’s Recovery Act activities.     (initial claims);
OIG plans to approach its oversight responsibilities 279 days for cases decided at the DDS level
proactively, by evaluating SSA’s plans for spending         (reconsiderations);
prior to their expenditure, as well as conducting 811 days for cases decided at the ALJ level;


October 1, 2008–March 31, 2009                                                                   Impact •        9
                Semiannual Report to Congress




                1,053 days for cases decided at the Appeals   We found SSA had taken or planned
                  Council level; and                            some corrective action on 13 of the
                1,720 days for cases decided at the Federal   17  recommended projects. Of the 17, the
                  Court level.                                  study recommended three projects the Agency
                                                                should defer because of the anticipated
                We believe the processing times determined in   change in the NCC’s functional role. The
                our review may assist SSA and the Congress      study identified four alternatives deemed
                in making decisions about the disability        viable to resolve the Agency’s long-term data
                programs. We recommended that SSA               processing needs. SSA is progressing on both
                develop and publish a measure that shows        immediate and long-term solutions to its Data
                the overall disability processing time from the Center needs. Until the signiﬁcant issues
                claimant’s perspective. SSA agreed with our     identiﬁed by the study are fully addressed
                recommendation, but has not moved forward       and a long-range Data Center solution
                because it is unable to capture the management  is implemented, the Agency’s operations
                information necessary to calculate this measure remain vulnerable.
                and doing so would require redirecting already
                limited resources.                              Going forward, the Agency needs to focus
                                                                its eﬀorts on detailed plans (1) to acquire,
                Quick Response Evaluation: The Social           construct and operate a new Data Center; (2)
                Security Administration’s Ability to            cost estimates for the use and/or disposal of
                Address Future Processing Requirements the NCC should a new primary Data Center
                (Limited Distribution)                          be built; and (3) for IT requirements for the
                SSA’s National Computer Center (NCC) next 5, 10 and 20 years. Further, SSA should
                houses the infrastructure that supports the identify the underlying factors that allowed
                Social Security programs. The design and the current NCC situation to occur and
                age of the NCC, as well as the increasing implement the necessary controls to prevent
                workload, has raised concerns about SSA’s this situation from recurring in the future.
                ability to address future processing Quick Response Evaluation: Sources of
                requirements. In FY 2008, a study of the Erroneous Death Entries Input into the
                NCC identified infrastructure and data Death Master File
                processing capacity issues.
                                                               In June 2008, we reported that SSA’s
                In this evaluation, we assessed SSA’s eﬀorts publication of the Death Master File
                to address future processing needs and (DMF) resulted in the breach of personally
                infrastructure issues at the NCC. Speciﬁcally, identifiable information (PII) for over
                we assessed SSA’s actions to address 20,000 living individuals erroneously listed
                signiﬁcant issues identiﬁed in the study. The as deceased in the DMF. SSA made these
                study recommended 17 projects that should individuals’ SSNs; first, middle, and last
                be undertaken at SSA’s NCC and its Utility names; dates of birth and death; and State and
                Building to sustain existing information ZIP codes of last known residences available
                technology (IT) operations through the end to DMF users before learning that they were
                of 2014.                                       not actually deceased.




10 •   Impact                                                             October 1, 2008–March 31, 2009
                                                              Semiannual Report to Congress




We conducted this review to identify the          Management Advisory Report: R-1
sources of erroneous death reports input          Religious Workers’ Use of Social Security
into the DMF, and to determine whether            Numbers
requiring all States to submit death reports     Each year, the Department of State issues
via the Electronic Death Registration            thousands of visas to non-immigrants
(EDR) reporting system will eliminate death      who wish to work in a religious vocation
reporting errors. Review of available DMF        or occupation in the United States.
data indicated that from April 2007 through      SSA assigns SSNs to non-immigrants,
October 2008, SSA added and subsequently         including R-1 religious workers, who enter
deleted 7,597 death entries to/from the DMF.     the United States with work authorization.
We found that most of the erroneous death However, regulations prohibit R-1 religious
entries input in the DMF originated from workers from obtaining employment in a
non-State sources, so even if all States secular occupation.
submitted death reports via the EDR, death In this audit, we assessed SSN use by non-
reporting errors would likely continue. Even immigrants with an R-1 religious worker
with full implementation of EDR, additional classiﬁcation, and evaluated SSA’s compliance
changes are necessary to eliminate the cause of with policies and procedures when processing
most erroneous death entries. For example, R-1 SSN applications. We identified a
 SSA would have to stop accepting death population of 5,392 non-immigrants to
    reports from all non-EDR sources. SSA whom SSA assigned original SSNs from
    would have to turn away widows or other April 1, 2005 through March 31, 2006 based
    family members who visit a ﬁeld oﬃce on evidence indicating they were R-1 religious
    to report a death, and await “official” workers. From this population, we randomly
    notiﬁcation from the State before initiating selected a sample of 200 records.
    or terminating related beneﬁt claims.
                                                 Of the 200 sample items we reviewed, we found
 SSA would also have to stop processing that 31 percent of R-1 religious workers had
    death reports received directly from other solely religious wages posted to their earnings
    non-State sources, such as funeral homes, record. Wages for the remaining individuals in
    postal authorities, etc.                     our sample are categorized as follows:
SSA acknowledged that it would not be                39 percent had no wages reported;
practical for field offices to stop accepting        11  percent had only self-employment
ﬁrst party death reports. This would delay            earnings; and
the processing of claims, increase erroneous
payments, and cause public relations problems.       19  percent had wages recorded from
Therefore, SSA must work to improve the               non-religious organizations or some
death reporting process to reduce or eliminate        combination of religious and non-religious
erroneous death terminations and prevent the          wages and/or self-employment earnings.
accidental exposure of living individuals’ PII.   We recommended that SSA consider
                                                  requiring R-1 religious workers to provide
                                                  current evidence of religious employment
                                                  or a promise of employment, and establish


October 1, 2008–March 31, 2009                                                                     Impact • 11
                Semiannual Report to Congress




                their need for an SSN for wage reporting              1 had not been updated within 5 years,
                purposes before SSN assignment.                        and the Agency had not published a time
                                                                       frame for issuing a revision;
                Of the 200 sample items we reviewed,
                13  percent contained at least 1 compliance           6 had not been updated within 5 years, but
                error. We recommended that SSA reemphasize             SSA expected to update them in the next
                to ﬁeld oﬃce personnel the importance of               12 months; and
                following all policies and procedures when            8 had been updated within 5 years.
                processing SSN applications for R-1 religious
                workers and take corrective action to address      In January 2008, SSA oﬃcials informed the
                performance problems or training needs when        Government Accountability Oﬃce the Agency
                Agency personnel do not comply with this           expected to ﬁnish updating all listings by mid-
                requirement. Lastly, we recommended that           2010. In January 2009, SSA reported it was
                SSA correct errors we identiﬁed in its records.    still on track to meet this goal. To ensure that
                SSA agreed with our recommendations.               the listings are current, we recommended SSA:
                                                                   (1) update all listings over 5 years old; and (2)
                The Social Security Administration’s               continue to monitor the listings to ensure they
                Listing of Impairments                             reﬂect medical and technological advances.
                                                                   SSA agreed with the recommendations.
                We conducted this review to assess SSA’s
                eﬀorts to update the Listing of Impairments        Earnings Records with Multiple Employer
                (the listings) used to determine whether a         Identiﬁcation Numbers
                person is disabled. SSA uses the listings
                                                                   SSA maintains a Master Earnings File (MEF)
                to help expedite the processing of disability
                                                                   of annual wages reported by employers and the
                claims. By the late 1990s, many of the listings
                                                                   Internal Revenue Service (IRS). We conducted
                were not up to date, but SSA was working
                                                                   this review to assess the probability that more
                to update them. SSA has made progress in
                                                                   than one individual worked under the same
                updating its listings, but some have not been
                                                                   SSN when the earnings record indicated a
                updated in many years and do not reﬂect recent
                                                                   large number of employers reported wages for
                medical and technological advances.
                                                                   the number holder in Tax Year (TY) 2005.
                In 2003, SSA implemented a new process
                                                                   Our audit conﬁrmed that earnings records
                for revising the listings. This new process
                                                                   with wages reported by multiple employers in
                was designed to ensure there are continuous
                                                                   1 year may indicate SSN misuse. For example,
                monitoring and updates of the listings about
                                                                   in our sample of number holders with wages
                every 3 to 4 years, with feedback loops to allow
                                                                   reported by 6 to 12 employers, it appears that
                for increased input from Agency staﬀ, medical
                                                                   1.6 percent of the SSNs/names were used
                experts and advocacy groups. The listings for
                                                                   by more than one person for work purposes.
                each body system describe impairments that
                                                                   Additionally, in our sample of number holders
                are considered severe enough to prevent an
                                                                   with wages reported by 13 to 100 employers,
                adult from doing any gainful activity or to
                                                                   we estimate that 2,268 (10.5 percent) of the
                cause marked and severe functional limitations
                                                                   21,603 SSNs in the population were used by
                in a child younger than 18 years old. As of
                                                                   more than one person for work purposes.
                March 2009, of the 15 body systems,



12 •   Impact                                                                 October 1, 2008–March 31, 2009
                                                             Semiannual Report to Congress




Along with our Oﬃce of Investigations, we        Our objective in conducting this evaluation
determined there are legitimate reasons an       was to assess the impact of State employee
individual may receive wage reports from         furloughs on SSA’s disability programs.
multiple employers. For example, for TY 2005     Furloughs of DDS employees will impact
cases in which over 100 employers reported       SSA’s ability to process the disability workload.
wages for a number holder, we found no           Additionally, because fewer disability decisions
evidence of SSN misuse. Rather, it appears       will be made in States with DDS furloughs,
these 14 number holders served as resident       there will be a negative impact on the ﬂow of
agents, oﬃcers and/or board members for          money in the United States (U.S.) economy.
numerous “passive investment corporations”
and received wages from each.                    As of March 3, 2009, of the 52 DDSs;
                                                  5 were furloughing—California,
To better ensure the integrity of SSA’s             Connecticut, Maryland, Massachusetts
enumeration process, we recommended the             and Oregon;
Agency evaluate the feasibility of adding a
special indicator code on the Numident for        3 were considering furloughs; and
those number holders who disclaimed wages         44 were not furloughing or the DDS was
with SSA or the IRS and alleged that someone        exempt.
other than the true number holder used his or
                                                 Additionally, of the 52 DDSs;
her SSN and name to work. This indicator
should prevent the issuance of replacement        5 had hiring freezes;
SSN cards and/or SSN Verification                 1 was considering a hiring freeze; and
Printouts without independent veriﬁcation         46 did not have hiring freezes or the DDS
of identity documents. SSA agreed with the          was exempt.
recommendation.
                                                 We estimate that furloughs in the California
Quick Response Evaluation: Impact of             DDSs will result in about 2,375 fewer claims
State Employee Furloughs on the Social           processed per month resulting in about 776
Security Administration’s Disability             fewer allowances and $648,000 in delayed
Programs                                         beneﬁts to new beneﬁciaries. SSA should
When an individual applies for disability        continue to urge States to ensure DDSs are
beneﬁts, SSA generally forwards the claim        operating at full capacity or pursue other
to the DDS in the State or other responsible     options to avoid these delays by shifting
jurisdiction in accordance with Federal          work away from States that are implementing
regulations for a disability determination.      furloughs.
DDSs are located in each of the 50  States
plus the District of Columbia and Puerto Rico.
                                                 Fugitive Felons Serving as Representative
To deal with budget deﬁcits, some States have
                                                 Payees
instituted or are considering furloughs and/or   SSA has the authority to appoint representative
hiring freezes for State employees, including    payees to manage Social Security beneﬁts for
DDS staﬀ which are funded by SSA, up to its      individuals who because of their age, mental,
approved funding authorization.                  and/or physical impairment cannot manage
                                                 their own ﬁnances. In a March 2003 report,



October 1, 2008–March 31, 2009                                                                       Impact • 13
                Semiannual Report to Congress




                we concluded that SSA should use fugitive           Investigative Impact Initiatives
                warrant information to screen representative
                payees because a fugitive felon may not be the   OI examines and investigates allegations of
                best individual to manage a beneﬁciary’s funds.  fraud, waste, abuse, and mismanagement
                After our report was issued, the Social Security in SSA programs and operations. These
                Protection Act of 2004 was signed into law. This allegations may involve beneﬁt fraud, SSN
                law, which took eﬀect in April 2005, contains    misuse, violations by SSA employees, or
                a provision that disqualiﬁes fugitive felons     fraud related to grants and contracts. Our
                from serving as representative payees. We        investigations often result in criminal or civil
                conducted this audit to assess SSA’s controls    prosecutions and the imposition of CMPs
                in preventing fugitive felons from serving as    against oﬀenders. These investigative eﬀorts
                representative payees.                           impact SSA program integrity by deterring
                                                                 those contemplating fraud against SSA in
                We found that SSA’s controls need to be the future. Our work in the areas of program
                improved to prevent fugitive felons from serving fraud, enumeration fraud, SSN misuse, and
                as representative payees. Based on our sample, employee misconduct ensures the reliability of
                we estimate that since the law took eﬀect in SSA programs and their future operations.
                April 2005 through September 2008, about
                $75.8 million in Social Security funds was
                paid to about 6,527 fugitive felons who were
                                                                            Investigative Results
                                                                      October 1, 2008 — March 31, 2009
                representative payees. These payees received
                beneﬁts for about 8,384 SSA beneﬁciaries.                Allegations Received         50,474
                Of the $75.8 million, we estimate that
                                                                               Cases Opened            3,502
                approximately $47.6 million (63 percent) in
                beneﬁts was paid to about 2,070 representative                   Cases Closed          4,301
                payees whose warrants remained unsatisﬁed
                                                                                       Arrests           568
                through September  2008. Additionally,
                about $19.4 million will be paid over the next      Indictments/Informations             554
                12 months if these warrants remain unsatisﬁed
                                                                        Criminal Prosecutions            736
                and the fugitive felons continue serving as
                representative payees.                                            Civil/CMPs             177
                We recommended SSA: (1) conduct a match
                between the Fugitive Felon SSA Control
                File and the Representative Payee System
                to identify all representative payees with
                unsatisﬁed felony warrants, and determine
                whether more suitable representative payees
                are needed; and (2) review its current computer
                matching process to ensure that future alerts
                are generated and resolved for all representative
                payees with outstanding felony warrants. SSA
                agreed with the recommendations.



14 •   Impact                                                               October 1, 2008–March 31, 2009
                                                                            Semiannual Report to Congress




                                    Cases Opened by Program Category
                                      10/01/2008 thru 03/31/2009

                                                           Other
                                                           3.17%        Social Security Number
                                  Employee Related                               (SSN)
                                      1.26%                                      6.11%




  Title XVI-Disability (T16-DI)                                                                        Title II-Disability (T2-DIB)
            44.20%                                                                                                34.38%




                                                                                        Title II-Retirement (OASI)
                                                                                                   7.82%
                                                     Title XVI-Aged (T16-Aged)
                                                               3.06%




                                     Cases Closed by Program Category
                                       10/01/2008 thru 03/31/2009

                                                           Other
                                                           0.84%        Social Security Number
                                  Employee Related                               (SSN)
                                      1.30%                                      7.72%




  Title XVI-Disability (T16-DI)                                                                        Title II-Disability (T2-DIB)
            44.62%                                                                                                32.69%




                                                                                        Title II-Retirement (OASI)
                                                                                                  10.23%
                                                     Title XVI-Aged (T16-Aged)
                                                               2.60%




October 1, 2008–March 31, 2009                                                                                            Impact • 15
                Semiannual Report to Congress




                                                               intended for the Title XVI recipients, into his
                   Allegations Received by Source              co-conspirators’ bank accounts. The funds
                   October 1, 2008 — March 31, 2009            were quickly withdrawn and dispersed among
                          Law Enforcement          22,332      the employee and the co-conspirators.

                            SSA Employees          15,249      The employee resigned from SSA in
                                                               September  2008. In January  2009, after
                            Private Citizens        5,497      pleading guilty to theft of government funds,
                                Anonymous           4,232      the former employee was sentenced to 3 months
                                                               of home conﬁnement, 3 years of supervised
                                     Other          2,104      release and was ordered to pay restitution of
                               Beneﬁciaries           658      $20,182 to SSA. The co-conspirators were
                                                               not indicted due to their cooperation with
                            Public Agencies           402      the investigation.
                                   TOTAL           50,474
                                                               Employee Fraud: Transit Subsidy Fraud
                                                               In response to a request from the SSA/Deputy
                 Allegations Received by Category              Commissioner of the Office of Disability
                   October 1, 2008 — March 31, 2009            Adjudication and Review (ODAR), our
                              SSI Disability       21,699      Washington, DC oﬃce investigated ODAR
                                                               employees, located at the Falls Church,
                        Disability Insurance       16,660      Virginia oﬃce for allegedly committing transit
                                       SSN          5,648      subsidy fraud.

                         Old-Age, Survivors                   The employees were participants in the
                                                    2,509     National Capital Region Subsidy Transit
                                  Insurance
                                                              Program and received transit vouchers
                                       Other         2,968    supplied to them by SSA to oﬀset the cost
                                   Employee            499    of using mass transit to commute to work.
                                                              The investigation determined that 71 of the
                                    SSI Aged           491    342 participating ODAR employees failed
                                     TOTAL          50,474    to return vouchers to SSA for days in which
                                                              they did not use mass transit to travel to
                Employee Fraud: Former SSA Employee work. These employees maintained a monthly
                Misdirects Direct Deposits of Title XVI       parking contract with the company which
                Recipients                                    oversees the parking garage facility located at
                                                              the Falls Church oﬃce. Parking records of the
                Acting on a referral from the SSA Center
                                                              employees revealed the entry and exit dates
                for Security and Integrity, our Cleveland,
                                                              and times for each employee’s parking card.
                Ohio office investigated an SSA Claims
                Representative involved in changing the On January 15, 2009, ODAR informed
                direct deposit information of three Title XVI SSA/OIG of proposed administrative
                recipients to ﬁnancial accounts held by co- actions against 69 of the 71 employees.
                conspirators. The investigation revealed that ODAR proposed formal counseling for 4
                the employee directed three underpayments, employees and 2 actions were rescinded due

16 •   Impact                                                             October 1, 2008–March 31, 2009
                                                              Semiannual Report to Congress




to administrative error, with the remaining 63   CDI: Dentist Conceals Work Activity
employees receiving suspensions ranging from     While Collecting Disability Beneﬁts
1 to 14 days. Of the remaining employees,        Our Iselin, New Jersey CDI Unit investigated
one employee retired and transferred to          a 66-year-old man who had been receiving
another component.                               Title II disability beneﬁts since 1991 due to
                                                 cardiomyopathy. This case was based on an
Fugitive Felon Program                           anonymous complaint stating that the man
                                                 was concealing his work activity as a dentist,
The OIG’s Fugitive Felon Program identiﬁes       while collecting disability benefits. Our
fugitive felons and parole and probation         investigation revealed that the man returned to
violators through data matches between SSA’s     his dentistry practice 8 weeks after undergoing
beneﬁciary rolls and Federal and State warrant   heart surgery and that he failed to notify
databases. The impact of this program reaches    SSA of his medical improvement and his
beyond Social Security to local communities      return to work. From February 1991 through
across the United States. Our data-sharing       March 2007, he received $247,516 in disability
efforts with local, State, and Federal law       beneﬁts to which he was not entitled.
enforcement agencies contributed to the arrest
of over 12,000 subjects during this reporting In October 2008, the man pled guilty to theft
period, and over 83,000 arrests since the by deception and was sentenced to 3 years’
program’s inception in 1996.                     incarceration. In addition to paying restitution
                                                 to private insurers from whom he fraudulently
Cooperative Disability                           collected disability insurance payments, he was
                                                 ordered to repay $235,032 to SSA, which
Investigations Program                           represents the fraud loss not already repaid
                                                 by beneﬁt withholding. He also received a
Our CDI Program continues to be one of our
                                                 civil monetary penalty of $20,000 and $155
most successful initiatives, contributing to the
                                                 in court ﬁnes.
integrity of SSA’s disability programs. CDI
is a joint eﬀort of the OIG, SSA, DDS, and CDI: Administrative Law Judge and
State and local law enforcement personnel. Medicaid Fraud Unit Recognizes Work
Established in 1998 with Units in just 5 States, of CDI Unit
our CDI program has recently expanded to 20
                                                 Our Richmond CDI Unit investigated a
Units in 18 States. The Units work to obtain
                                                 51-year-old man who applied for Title II
sufficient evidence to identify and resolve
                                                 disability beneﬁts due to leg and back problems.
issues of fraud and abuse related to initial and
                                                 The man reported he was unable to work due
continuing disability claims.
                                                 to his alleged disabilities and needed a cane
The following CDI case summaries highlight for ambulation. The Richmond DDS referred
major investigations we conducted during this case based on a request by an ALJ from
this reporting period which enhanced the Richmond, Virginia Oﬃce of Disability
SSA program integrity and the reliability of Adjudication and Review.
SSA’s operations.
                                                 Our investigation determined that the man
                                                 was able to walk without assistive devices.
                                                 For the past 16 years, he has routinely
                                                 walked approximately 1 mile to a local store
October 1, 2008–March 31, 2009                                                                      Impact • 17
                Semiannual Report to Congress




                to purchase beer. Witness interviews also              disability beneﬁts since 2000 due to coronary
                reported that the man frequently walks to a            artery disease, chronic obstructive pulmonary
                local store and never uses a cane for assistance.      disease, hypertension, and sleep apnea. SSA
                As a result of the CDI Unit’s investigation,           received an anonymous report advising that
                the ALJ denied the man’s appeal for Title II           the man had been working as a truck driver for
                disability beneﬁts.                                    2 years. Although the man was paid in cash,
                                                                       our investigation determined that the man
                The ALJ made the following statement
                                                                       made false statements regarding his work
                regarding the Richmond CDI Unit, “… I really
                                                                       activities during Continuing Disability Reviews
                appreciate CDI/OIG’s work on this and the other
                                                                       held in 2003 and 2007. Despite the payment
                cases I have requested they look into.” In addition,
                                                                       of cash for the man’s work, our investigators
                the Director for the State of Virginia, Attorney
                                                                       were able to obtain employee wage information
                General’s Medicaid Fraud Unit, stated the
                                                                       from several employers regarding the man’s
                following, “It is always an honor when a judge
                                                                       work history and wages.
                recognizes the work of our great investigators!
                The CDI Team Leader’s leadership with the              As a result of the CDI Unit’s investigation,
                Task Force is second to none. This case was            OCIG imposed an $18,000 penalty and
                thoroughly investigated and the report was well        $85,461 assessment for a total penalty
                written. You are saving the taxpayers millions         of $103,461 against the man for false
                of dollars every year.”                                statements made to SSA and concealment of
                                                                       work activity.
                CDI: Disability Applicant Seen Doing
                Lawn Work                                CDI: In-Home Care Provider Fails to
                Our Tampa, Florida CDI Unit investigated Report Work and Marriage to SSA
                a 56-year-old man who applied for Title II             Our Baton Rouge CDI Unit investigated a
                and Title XVI disability beneﬁts due to back           38-year-old woman who had been receiving
                pain, limited ability to walk, and other medical       SSI disability benefits since 1978 due to
                conditions. Witness interviews indicated that          mental retardation. SSA referred this case to
                the man had no problems walking and was                the Unit based on an earnings enforcement
                never seen using assistive devices to walk.            alert. Our investigation determined that the
                Also, witnesses reported observing the man             woman had been working as an in-home care
                loading and unloading heavy items from                 employee since 2003. The investigation also
                his vehicles. On another occasion, the man             revealed that the woman was married and
                was seen mowing, trimming, and cleaning                living in the same household with her husband
                up debris from his lawn. The man was not               and daughter, even though she reported to
                observed taking breaks or resting during the           SSA that she and her husband had not lived
                activity. As a result of the CDI investigation,        together since 1997.
                the Tampa DDS denied the man’s claim for
                                                                       As a result of the investigation, OCIG imposed
                disability beneﬁts.
                                                                       a $30,000 penalty against the woman for false
                CDI: Man Receives Disability Beneﬁts                   statements made to SSA and concealment of
                While Working as a Truck Driver                        her work activity and marriage.
                The Atlanta CDI Unit investigated a 52-year-
                old man who had been receiving Title II

18 •   Impact                                                                    October 1, 2008–March 31, 2009
                                                                     Semiannual Report to Congress




The following table highlights the successes of the CDI program, which yielded over $119
million in SSA program savings during this reporting period.
                Cooperative Disability Investigations Program Results
                                October 1, 2008 — March 31, 2009
    State                        Allegations        Conﬁrmed             SSA               Non-SSA
                                  Received         Fraud Cases          Savings1           Savings2
   Arizona                                 144                98         $8,072,740          $1,826,975
            3
  Arkansas                                   58                0                   $0                  $0
             4
  California                               378              266        $18,366,908         $18,404,303
  Colorado                                   84               57         $4,838,880          $3,017,633
  Florida                                    67               49         $3,749,196          $2,550,856
  Georgia                                  174              101          $8,462,551          $1,814,718
  Illinois                                   66               52         $3,972,840          $1,302,520
  Louisiana                                128                45         $3,625,240          $1,208,414
  Massachusetts                              66               46         $3,828,500          $1,259,040
  Missouri                                 103                51         $4,229,316          $1,179,105
  New Jersey                                 87               47         $4,018,500          $3,014,120
  New York                                 116                89         $7,043,232          $4,986,480
  Ohio                                     196              163        $13,210,740           $5,666,600
  Oregon                                   120                90         $7,441,296          $5,099,610
  Tennessee                                  67               59         $5,044,500          $1,906,415
        5
  Texas                                    327              169        $14,070,040           $6,369,556
  Virginia                                   84               42         $3,545,940          $2,522,270
  Washington                               104                81         $5,960,400          $3,843,340
  TOTAL                                  2,369            1,505 $119,480,819               $65,971,955
1
  SSA program savings are reported at a ﬂat rate of $85,500 for initial claims that are denied as a result of
  CDI investigations. When a CDI Investigation supports the cessation of an in-pay case, SSA program
  savings are calculated by multiplying the actual monthly beneﬁt times 60 months.
2
    Non-SSA Savings are also projected over 60 months whenever another governmental program withholds
    beneﬁts as a result of a CDI investigation, using estimated or actual beneﬁt amounts documented by
    the responsible agency.
3
    The Little Rock, Arkansas Unit was established on October 1, 2008.
4
    California has two units, one in Los Angeles and the other in Oakland.
5
    Texas has two units, one in Dallas and the other in Houston.




October 1, 2008–March 31, 2009                                                                                  Impact • 19
                                                               Semiannual Report to Congress




Value                                             spousal beneﬁts were eligible to receive higher
                                                  retirement benefits on their own earnings
The second goal of the OIG Strategic Plan records.
is Value. All OIG initiatives strive to provide
                                                  We found that SSA’s controls did not always
value to SSA, the Congress, other key decision
                                                  ensure that spouses received the highest
makers, and the public by delivering timely and
                                                  beneﬁts due them. This occurred because SSA
reliable audit, investigative, and legal products
                                                  did not have procedures in place to identify and
and services. To achieve the intended value,
                                                  notify spouses when they became eligible for
these products and services must eﬀectively
                                                  higher beneﬁts on their own earnings records
meet the needs of all whom we serve while
                                                  as a result of delayed retirement credits and
maximizing our available resources. To do this,
                                                  qualifying quarters of coverage. Speciﬁcally,
we integrate best-practice strategies and the
                                                  we estimated:
newest technologies to increase our productivity
and maximize our return on investment to  13,580  spouses were eligible for an
the public.                                           additional $123.7 million in retirement
                                                      benefits from February  1993 to
                                                      January  2008 had they been paid on
Value Attained Through                                their own earnings records after attaining
Audits                                                age 70. On average, each spouse could have
                                                      received an additional $9,112 in beneﬁts.
Many of our audits are focused on identifying
SSA programmatic and operational areas  Of these individuals, 12,340  spouses
where funds could be put to better use.               could receive an additional $209 million
In addition, we often question approaches             in retirement beneﬁts over their remaining
and their accompanying costs, and we                  life expectancies. On average, each spouse
recommend alternatives to yield program and           could receive an additional $16,937 
operational savings.                                  in beneﬁts.
                                                   We also estimated that 4,940 spouses were
During this reporting period, our auditors            eligible for an additional $27.3  million
issued 38 reports, identifying over $130.4            in retirement beneﬁts from April 1986
million in questioned costs and more than             to October 2003 had they been paid on
$320.9 million in Federal funds that could be         their own earnings records between full
put to better use. Some of our most notable           retirement age and age 70. On average,
audits are summarized below.                          each spouse could have received an
                                                      additional $5,522 in beneﬁts.
Payments to Spouses Eligible for Higher
Retirement Beneﬁts                                 We recommended that SSA identify and
Title II of the Social Security Act provides       notify beneﬁciaries receiving spousal beneﬁts
beneﬁts for retired workers’ families including    of their eligibility to receive higher retirement
beneﬁts for spouses; however, spouses with         beneﬁts on their own earnings records at full
suﬃcient quarters of coverage may become           retirement age and/or age 70. SSA agreed
dually entitled to Title II beneﬁts on their own   with our recommendation.
earnings record. We conducted this review
to determine whether beneﬁciaries receiving


October 1, 2008–March 31, 2009                                                                         Value • 21
               Semiannual Report to Congress




               Assignment of Social Security Numbers             applications at its Saipan and Pago Pago ﬁeld
               to Individuals in the Commonwealth                oﬃces without written operating policies and
               of the Northern Mariana Islands and               procedures. Finally, ﬁeld oﬃce personnel in
               American Samoa                                    Pago Pago, American Samoa, did not always
               We assessed SSA’s process for assigning document their independent verification
               SSNs to individuals in the Commonwealth of birth records for individuals claiming
               of the Northern Mariana Islands (CNMI) U.S. citizenship.
               and American Samoa. Each of these insular Accordingly, we recommend that SSA: (1)
               areas has its own government and immigration establish written policies and procedures for
               system. Individuals born in the CNMI are assigning SSNs to noncitizens in the CNMI
               U.S. citizens and those in American Samoa are and American Samoa; (2) until DHS assumes
               U.S. nationals (considered the same as citizens responsibility for the CNMI immigration,
               for SSA purposes). However, thousands of instruct Saipan field  office personnel to
               noncitizens travel to these insular areas each compare signatures on immigration documents
               year to work, and SSA has relied on the CNMI provided by noncitizens with a signature list of
               and American Samoa immigration systems authorized immigration oﬃcials to ensure they
               when assigning SSNs. We are concerned that match; and (3) reemphasize to Pago Pago ﬁeld
               SSA’s policies and practices may place it at-risk oﬃce personnel the importance of following
               for improper SSN assignment to individuals all enumeration policies and procedures. SSA
               who may not be who they purport to be.            agreed with the recommendations.
               To accomplish our objective, we identiﬁed
                                                               Contract for the Beneﬁt Oﬀset National
               a population of 5,229 individuals (U.S.
                                                               Demonstration Project with Abt
               citizens and noncitizens) to whom SSA
                                                               Associates, Incorporated
               assigned original SSNs based on applications
               processed at the Saipan, CNMI, and Pago         SSA contracted with Abt Associates (Abt)
               Pago, American Samoa, ﬁeld oﬃces in 2007.       to develop the Benefit Offset National
               From this population, we randomly selected      Demonstration (BOND) project that tests
               a sample of 200 SSNs to determine whether       alternate methods of treating work activity
               SSA personnel followed applicable policies      in the Title II disability program. With this
               when processing SSN applications. Of the        project, SSA plans to test a $1 reduction
               200 SSN applications we reviewed, ﬁeld oﬃce     in benefits for every $2 in earnings with
               personnel generally complied, except as noted   the goal of helping more beneficiaries to
               below, with these requirements.                 return to work. In conducting this audit we
                                                               reviewed the services provided by Abt under
               During our audit, the United States enacted     the contract and the related costs charged to
               legislation applying U.S. immigration law       SSA for adherence to the negotiated contract
               to the CNMI. While we are encouraged by         terms and applicable regulations, and ensured
               this legislation, until DHS implements ﬁnal     SSA received the goods and services for which
               regulations, key details regarding noncitizen   it contracted.
               workers remain unknown; and, we are
               unaware of any proposed legislation to apply We found that Abt generally adhered to the
               U.S. immigration law to American Samoa. terms of the contract, and delivered the services
               In addition, SSA processed noncitizen SSN and final design options SSA requested


22 •   Value                                                              October 1, 2008–March 31, 2009
                                                                  Semiannual Report to Congress




under the contract. However, multiple               improved ﬁnancial monitoring and using an
modiﬁcations extended the contract period           independent party to evaluate the contract.
from 2 to 4 years, and obligated costs for
the design phase increased to $10.6 million,        Value Attained Through
$8.2 million more than initially expected.
In addition, the delay of the BOND design           Investigations
phase led to additional costs under the Four-       During this reporting period, the eﬀorts of our
State Pilot, or $4.5 million more than initially    investigators yielded signiﬁcant results arising
expected. The Four-State Pilot was intended         from the successful prosecution of cases that
to be a 2-year demonstration project to assist      we developed. Our investigators achieved over
with the design phase to determine the eﬀect        $166 million in investigative accomplishments,
of various interventions in combination with        with over $24 million in SSA recoveries,
a benefit offset on employment outcomes             restitution, ﬁnes, and settlements/judgments,
including wages, beneﬁts, hours worked and          and over $142 million in projected savings
job retention.                                      from investigations resulting in the suspension
In terms of contract management, prior              or termination of beneﬁts.
SSA management demonstrated inadequate              The following table represents the efforts
oversight of the contract’s planning, scope         of OI personnel nationwide to recover SSA
and expenditures. And while current SSA             funds paid in fraudulent beneﬁts or through
management attempted to streamline the              other illegal actions.
BOND project’s design, ﬁnancial monitoring
of the project was inadequate. Furthermore,
prior and current SSA management did not
                                                              SSA Funds Reported
                                                        October 1, 2008 — March 31, 2009
monitor the contract in a way that allowed for
quickly detecting or avoiding cost overruns for      Recoveries                    $10,843,514
tasks. We found that SSA management had
                                                     Fines                           $1,503,677
not performed timely contractor performance
evaluations which are required by the                Settlements/Judgments             $722,739
contract and recommended by the Federal
                                                     Restitution                   $11,871,354
Acquisition Regulations.
                                                     Estimated Savings            $142,007,915
In terms of contract coordination, we believe
earlier communication between BOND and               TOTAL                        $166,949,199
the Four-State Pilot regarding the project’s
design would have enhanced the Pilot’s              The following case summaries are indicative
usefulness. Finally, we found that the sole-        of the more than 4,300 investigations that
source contract lacked clear separation of duties   we closed during this reporting period.
by allowing the contractor to evaluate its own      The cases we have highlighted illustrate
performance. We made six recommendations            the many instances where our investigative
to improve oversight of the BOND contract           eﬀorts have resulted in a signiﬁcant return
and similar contracts. In response to the           on investment.
report, SSA noted it had already made a
number of changes and concurred with four
recommendations but disagreed with two —

October 1, 2008–March 31, 2009                                                                         Value • 23
               Semiannual Report to Congress




               SSN Misuse: Man Assumes Identity of                After pleading guilty to aggravated identity
               Deceased Teens                                     theft and access device fraud, a third co-
               Acting on information supplied by the Royal        conspirator was sentenced in November
               Canadian Mounted Police, agents from our           2008 to 81 months’ incarceration and 3 years’
               Seattle office and the Federal Bureau of           supervised release and was ordered to pay
               Investigation investigated a man who used at       restitution of $152,291 to various ﬁnancial
               least 9 identities. The investigation revealed     institutions. This amount is to be paid jointly
               that the 53 year-old man assumed the identities    and severally with 3 of his co-conspirators.
               of deceased teenage boys for the purpose of        Also in November 2008, after pleading guilty
               obtaining SSN cards, driver’s licenses, identity   to conspiracy and aggravated identity theft,
               documents, concealed weapons permits, and          a fourth co-conspirator was sentenced to
               U.S. passports. The man went so far as to          36 months’ incarceration and 3 years’
               legally change the names of the deceased           supervised release and was ordered to pay
               teenagers. After pleading guilty to SSN fraud,     restitution of $46,937 to a ﬁnancial institution.
               Social Security fraud, unlawful production         The ﬁnal co-conspirator, after pleading guilty
               of an identification document, aggravated          to access device fraud, was sentenced in
               identity theft and mail fraud, the man was         January 2009 to 37 months’ incarceration and
               sentenced in November 2008 to 30 months’           3 years’ supervised release, and was ordered
               incarceration and 3 years’ supervised release.     to pay restitution of $304,833 to a ﬁnancial
                                                                  institution.
               SSN Misuse: Scheme Using Multiple
               Identities Accrues Fraud Losses        SSN Misuse: Conspirators Face Prison
               Exceeding $500,000                     and Deportation for Involvement in
               Our St. Louis office conducted a joint Counterfeiting Documents
               investigation with the St. Louis Identity Theft Agents from our Atlanta oﬃce, in response to
               Task Force involving several individuals who    a request for assistance from the Immigration
               were part of an identity theft ring. The co-    and Customs Enforcement (ICE) Document
               conspirators used multiple identities to open   and Beneﬁt Fraud Task Force, participated in
               new credit accounts, or to add themselves       a joint investigation with ICE of a criminal
               to existing accounts at major chain stores,     organization responsible for a counterfeiting
               resulting in fraudulent purchases exceeding     scheme. The investigation revealed that
               $500,000.                                       members of the organization were involved
               After pleading guilty to access device fraud, in the solicitation, manufacturing, and sale of
               one of the co-conspirators was sentenced to counterfeit documents in the Atlanta area.
               8 months’ incarceration and 3 years’ supervised In November 2008, three of the co-
               release and was ordered to pay restitution of conspirators pled guilty to conspiracy to
               $25,525 to a ﬁnancial institution. Another commit identity fraud and aggravated identity
               co-conspirator pled guilty to conspiracy and theft and were sentenced as follows: one man
               was sentenced in October 2008 to 5 months’ was sentenced to 54 months’ incarceration and
               home conﬁnement and 3 years’ probation and 3 years’ supervisory release and was ordered
               was ordered to pay restitution of $3,498 to a to pay a special assessment fee of $300. Two
               ﬁnancial institution.                           others were each sentenced to 42 months’


24 •   Value                                                                 October 1, 2008–March 31, 2009
                                                               Semiannual Report to Congress




incarceration and 3 years’ supervised release      sentenced in October 2008 to 16 months’
and were ordered to pay a $300 assessment          incarceration, followed by 3 years’ supervised
fee. Also in November 2008, after pleading         release. In addition, she was ordered to pay
guilty to conspiracy to commit identity fraud,     restitution of $82,608 to her father.
a fourth man was sentenced to 12 months of
incarceration and 3 years of supervised release.   Representative Payee Fraud: Police
Upon release from prison, the four men will        Oﬃcer’s Wife Conceals Income
be remanded to ICE for appropriate removal         Acting on information supplied by the San
proceedings.                                       Marcos, California SSA oﬃce, agents from our
                                                   San Diego oﬃce investigated a woman who
Representative Payee Fraud:                        served as the representative payee for her two
Representative Payee Embezzles Over                disabled children. The woman failed to report
$308,000 in SSA Disability Beneﬁts                 to SSA that she and her husband had reunited
Agents from our Seattle oﬃce, acting on a          and that he was employed as a police oﬃcer.
referral from the South Seattle SSA oﬃce,          Additionally, she did not report the receipt of
conducted an investigation of the owner and        child support payments from her son’s father.
operator of an organizational representative       This income made the children ineligible for
payee service. The investigation revealed          SSI disability payments. In November 2008,
that from March 2003 through September             after pleading guilty to grand theft and loss
2007, the man embezzled over $308,000 from         of over $50,000, the woman was sentenced to
hundreds of SSA disability recipients while        5 years’ probation and 200 hours of community
acting as their representative payee. After        service. She was also ordered to pay SSA
pleading guilty to theft of government funds       restitution of $62,824. Prior to her sentencing,
and Social Security fraud, he was sentenced        the woman repaid $29,900 to SSA.
in February 2009 to 78 months’ incarceration,
followed by 3 years’ supervised release. He was Representative Payee Fraud: Mother
also ordered to pay restitution of $308,000 Fails to Notify SSA that Child Left Her
to SSA.                                         Custody
                                                Based on information received from the
Representative Payee Fraud: Daughter            Westbank New Orleans SSA oﬃce, our Baton
Uses Father’s Disability Beneﬁts for            Rouge oﬃce investigated the representative
Living Expenses                                 payee and mother of an SSI disability
Acting on a referral from the Rapid City, South recipient. The investigation revealed that the
Dakota SSA oﬃce, an agent from our Helena, woman failed to notify SSA that her child
Montana oﬃce investigated the representative left her care and custody. SSA determined
payee of a Title II disability beneﬁciary. The that from March 2004 through December
woman served as representative payee for 2007, the mother was incorrectly paid
her father who was residing in a Veterans $26,736 in beneﬁts for the child. The mother
Aﬀairs Hospital. From March 1998 through pled guilty to theft and was sentenced in
November 2006, the woman converted December 2008 to 27 days’ incarceration, with
$82,608 of her father’s beneﬁts for her own 5 years’ incarceration suspended, and 5 years’
living expenses. The woman pled guilty probation. The mother was also ordered to
to theft of government property and was pay restitution of $26,736 to SSA.


October 1, 2008–March 31, 2009                                                                        Value • 25
               Semiannual Report to Congress




               Disability Program Fraud: Merchant                   Beneﬁciaries Hiding Wages. This audit identiﬁed
               Marine Oﬃcer Guilty of Social Security               individuals receiving Title II disability beneﬁts
               Fraud                                                while hiding their wages. The investigation
               Acting on a request for assistance from the          revealed that a disability beneﬁciary owned
               New Jersey Division of Criminal Justice, our         and operated his own freight company. From
               Iselin, New Jersey oﬃce investigated a Title         1997 through 2007, the man reported his
               II disability beneﬁciary. The investigation          earnings using his spouse’s SSN. In January
               conﬁrmed that the man collected disability           2009, after pleading guilty to Social Security
               beneﬁts under one name and SSN, while using          fraud, the man was sentenced to 3 months’
               a second name and SSN to conceal his work            home conﬁnement and 3 years’ probation.
               and earnings. It was further determined that         He also was ordered to pay restitution of
               the man held a U.S. Coast Guard license as           $141,666 to SSA.
               a Merchant Marine Oﬃcer and that he was
                                                                    Disability Program Fraud: Title II
               found to be mentally and physically competent
                                                                    Disability Beneﬁciary Uses Stepdaughter’s
               to captain a U.S. Coast Guard vessel, which
                                                                    SSN to Conceal Employment
               was contrary to the medical evidence he
               submitted to SSA. The man pled guilty to             Acting on a request for assistance from
               Social Security fraud and was sentenced in           the Indiana State Police, an agent from
               December 2008 to 21 months’ incarceration            our Indianapolis office investigated a
               and 3 years’ supervised release. He was ordered      Title II disability beneﬁciary for using his
               to pay restitution of $384,980 to SSA.               stepdaughter’s name and SSN to conceal his
                                                                    employment from SSA. The investigation
               Disability Program Fraud: Machine                    revealed that from October 2003 through
               Mechanic Conceals Work Activity                      January 2005, the beneﬁciary was compensated
               Based on information supplied by the Kapolei,        by his company in the name and SSN of his
               Hawaii SSA oﬃce, our Santa Ana, California           stepdaughter. The beneﬁciary pled guilty to
               oﬃce investigated a Title II disability beneﬁciary   Social Security fraud and was sentenced in
               for work concealment. The investigation              February 2009 to 15 months’ incarceration
               revealed that the beneﬁciary worked as a self-       and 3 years’ supervised release. He was also
               employed heavy machine mechanic at a steel           ordered to pay restitution of $45,558 to SSA.
               corporation. SSA determined that the man
                                                                    Deceased Payee Project: Daughter Fails
               was overpaid beginning in December 2000.
                                                                    to Report Mother’s Death to SSA
               In October 2008, after pleading guilty to theft
               of government funds, the man was sentenced     Our Birmingham office conducted this
                                                              investigation as part of the National Deceased
               to 1 year of incarceration, followed by 3 years’
               supervised release. In addition, he was orderedPayee Project (BIC-D), which identifies
               to pay restitution of $158,183 to SSA.         widows and widowers of Title II beneﬁciaries
                                                              whose benefits continued to be paid after
               Disability Program Fraud: Freight              their death. The investigation determined
               Company Owner Uses Wife’s SSN to               that beneﬁts continued to be paid to a Title
               Conceal Employment                             II widow beneﬁciary who died in October
               Our Hartford oﬃce initiated this investigation 2004. Further investigation revealed that
               pursuant to our audit entitled, Disabled her daughter, who was her representative


26 •   Value                                                                   October 1, 2008–March 31, 2009
                                                              Semiannual Report to Congress




payee, failed to report her mother’s death to     probation and was ordered to pay restitution
SSA and continued to receive and cash the         of $7,162 to SSA. Prior to sentencing,
benefits checks, converting the funds for         SSA administratively recovered $5,918 of the
her own personal use. In November 2008,           fraud loss.
after pleading guilty to theft of government
funds, the daughter was sentenced to 5 years’     Double Check Negotiation Project:
probation and was ordered to pay restitution      California Woman Fraudulently Claimed
of $26,306 to SSA.                                Non-Receipt of 18 Title XVI Checks
                                                  An investigation by our Santa Ana office
Deceased Payee Project: Woman         determined that a woman, who served
Fraudulently Withdraws SSA Funds from as a representative payee for four Title
Deceased Grandmother’s Bank Account   XVI recipients, converted 18 original and
Agents from our Dallas oﬃce conducted this        replacement checks to her own personal use
investigation as part of the BIC-D Project.       resulting in an SSA fraud loss of $12,122.
The allegation stated that Title II widows        After pleading guilty to mail fraud, the
beneﬁts continued to be directly deposited        woman was sentenced in November 2008
into the beneﬁciary’s bank account although       to 4 months’ home detention with electronic
she had died in June 2004. The investigation      monitoring, 3 years’ supervised release, and
revealed that the beneﬁciary’s granddaughter      400 hours of community service. Additionally,
withdrew the funds from the bank account          she was ordered to pay restitution of $12,122
and converted them for her own use. After         to SSA.
pleading guilty to theft of government funds,
the granddaughter was sentenced in October        Bankruptcy Fraud Project: California
2008 to 36 months’ probation, including 180       Man Files Multiple Fraudulent
days’ home conﬁnement. She was also ordered       Bankruptcies
to pay restitution of $30,210 to SSA.             Our Santa Ana office received a referral
                                                  from the U.S. Trustee’s Oﬃce alleging that
Double Check Negotiation Project:                 a California man fraudulently used several
Wisconsin Woman Convicted After                   aliases and SSNs to ﬁle multiple bankruptcy
Alleging Non-Receipt of Title XVI                 petitions. It was also alleged that the man
Checks on 27 Occasions                            operated a fraudulent cellular phone scheme
Our Milwaukee oﬃce investigated a woman           that resulted in a Los Angeles County Superior
who alleged non-receipt of her Title XVI          Court judgment against him for $243,895
disability checks on 27 occasions, and then       in commissions and $456,818 in cell phone
cashed both the original and replacement          products. The judgment led to the ﬁrst of
checks, resulting in an SSA fraud loss of         his three bankruptcies. Our investigation
$13,080. After being interviewed, the woman       determined that the man used as many as
gave a sworn statement confessing to cashing      four aliases and had at least two fraudulent
54 Social Security checks, as opposed to          California driver’s licenses. In December
the 27 checks to which she was entitled. In       2008, after pleading guilty to bankruptcy
October 2008, after pleading guilty to theft of   fraud, the man was sentenced to 12 months’
government funds, the woman was sentenced         incarceration and 3 years’ probation.
to 10 months’ incarceration and 1 year of


October 1, 2008–March 31, 2009                                                                     Value • 27
               Semiannual Report to Congress




               Bankruptcy Fraud Project: Nebraska             penalties of up to $5,000 for each false
               Woman’s Fraudulent Bankruptcy Causes           statement, representation, conversion, or
               Foreclosure on Mother’s Home                   omission. A person may also be subject to an
               Our Omaha office received a request for assessment, in lieu of damages, of up to twice
               assistance from the Nebraska U.S. Attorney’s the amount of any resulting overpayment.
               Office. The referral indicated that the The following table and cases highlight the
               identity of an Omaha homeowner was value achieved through our Section 1129
               used by the homeowner’s daughter without eﬀorts for this reporting period.
               consent, to apply for a $15,000 loan using
               the homeowner’s house as collateral. The                   False Statements
               daughter defaulted on the loan and used her              Under Section 1129
               mother’s identity to ﬁle a bankruptcy petition     October 1, 2008 — March 31, 2009
               to delay the foreclosure. Once approved for
               the bankruptcy, the daughter was not able to    Cases Received                    1,367
               make the loan payments and the homeowner        Cases Initiated                     164
               lost her home to foreclosure.
                                                                  Cases Closed                          853
               After pleading guilty to SSN and bankruptcy
               fraud, the woman was sentenced in November         Penalties and Assessments
                                                                                                $2,574,381
               2008 to 5 years’ probation and 1 month of          Imposed
               electronically monitored home conﬁnement.          Number of Hearings
               In addition, she was ordered to pay restitution                                            10
                                                                  Requested
               of $10,290 to a ﬁnancial institution.
                                                                 New York Business Owner Agrees
               Value Attained Through Legal                      to CMP Settlement of $30,000 for
                                                                 Misrepresenting Work Activity
               Initiatives
                                                                 A New York woman received Title II disability
               OCIG’s eﬀorts to administer the portion of        beneﬁts for 7 years due to a back injury. SSA
               the CMP program which deals with violators        determined that she engaged in substantial
               of Section 1129 of the Act maximize the           gainful activity during that time and ceased
               resources available to us and create a positive   her beneﬁts. The subject refused to pay the
               return on investment. Section 1129 of the         $91,000 overpayment. Consequently, SSA
               Act allows for the imposition of a CMP            recovered the money through her tax returns.
               against those who make false statements or        The woman applied for beneﬁts again and
               representations in connection with obtaining      alleged that she was not working, although
               or retaining beneﬁts or payments under Titles     she had started her own business.
               II, VIII, or XVI of the Act. In addition, CMPs
                                                                 During an investigation, an OIG Special Agent
               may be used to penalize representative payees
                                                                 visited the subject’s dog grooming business and
               for wrongful conversion of payments made
                                                                 observed the subject washing and shaving a
               under the Social Security programs, and to
                                                                 large dog despite her alleged back injury. SSA
               penalize individuals who knowingly withhold
                                                                 employees reported that the contact number
               a material fact from SSA. After consultation
                                                                 that the subject provided connected them with
               with the DOJ, OCIG is authorized to impose


28 •   Value                                                               October 1, 2008–March 31, 2009
                                                                Semiannual Report to Congress




her business and provided her work schedule         An OIG Special Agent interviewed the
for ﬁve days a week. The subject had great          subject’s husband, who admitted that he had
success in her new business venture and was         lived with his wife and three children for the
even featured in an article in a local newspaper.   past 8 years. Faced with this information, the
Nevertheless, the subject maintained that           subject admitted to misrepresenting her living
she was not capable of engaging in work             arrangements but she stated that she would
activity. After SSA denied her claim for            “do it again” because she thought it was in the
disability beneﬁts, she appealed to an ALJ,         best interest of her family. In a CMP action,
who also denied her claim. In a CMP action,         the woman agreed to pay a $10,000 penalty
OCIG negotiated a settlement with the subject       and the entire $54,276 overpayment for a total
for $30,000.                                        recovery of $64,276.

Ohio Man Agrees to CMP Settlement                   Texas Man Agrees to CMP Settlement of
of $42,048 for Misrepresenting Marital              $90,059 for Working Under His Wife’s
Status                                              Social Security Number
An Ohio man reported that he was not married        A Texas man initially began receiving disability
during an SSI redetermination, alleging that        beneﬁts while battling colon cancer, and was
he and his girlfriend lived together, and that      able to eventually return to work. The subject
he asked her to serve as his representative         concealed his work activity from SSA by using
payee. Subsequently, the subject returned to        his wife’s SSN so that he could continue to
the SSA oﬃce to report that he had married          receive his disability beneﬁts.
his girlfriend.
                                                    After an anonymous tip, a Special Agent
An OIG Special Agent visited the subject’s          conﬁrmed that the man had been working
residence to verify his living arrangements.        under his wife’s SSN for many years, while
During the interview, the subject admitted          continuing to collect disability beneﬁts. The
that he married his girlfriend 7 years ago but      subject admitted to his illegal behavior and
did not report the event to SSA. The subject        indicated that he was willing to repay the
apologized for misrepresenting his marital          money. OCIG negotiated a settlement with
status. In a CMP action, OCIG negotiated            the subject in which he agreed to pay a $20,000
a settlement with the subject. He agreed to         penalty and an assessment in lieu of damages
pay a $10,000 penalty and the entire $32,048        of $70,059.
overpayment for a total recovery of $42,048.
                                                    Michigan Woman to Pay $82,968 After
Ohio Woman Agrees to CMP Settlement                 Using Children’s Beneﬁts for Home
of $64,276 for Misrepresenting Living               Renovations
Arrangements                                        OCIG finalized a civil monetary penalty
An Ohio woman, on multiple occasions,               against a Michigan woman who submitted an
reported that her husband neither lived with        application for children’s insurance beneﬁts
her nor provided any income to support the          for her two minor nieces. The nieces were
family. During an SSI redetermination, the          recently orphaned and were in the woman’s
subject reiterated this information to continue     temporary custody. She received $16,484 on
receiving SSI beneﬁts for herself and, as a         the children’s behalf representing 10 months of
representative payee on behalf of her son.          beneﬁts. However, the children left her care

October 1, 2008–March 31, 2009                                                                         Value • 29
               Semiannual Report to Congress




               before she received the ﬁrst beneﬁt payment.     September 2005, OI interviewed the subject
               The woman did not notify SSA of this fact        and confronted him with their evidence. The
               and she did not use any of the funds for the     subject eventually admitted that he had worked
               children’s needs. Instead, she used the money    significantly more than he had reported,
               to make house renovations. OCIG assessed         made more money than he had reported, and
               the woman a $50,000 penalty and a $32,968        had lied because he did not want to lose his
               assessment in lieu of damages for a total        beneﬁts. He was assessed a penalty of $9,000
               penalty of $82,968.                              and restitution of the overpayment of $38,000
                                                                for a total CMP of $47,000.
               Massachusetts Fisherman Agrees to Pay
               An $80,979 CMP                               Texas Man Paid SSA $15,000 After
               A Massachusetts ﬁsherman ﬁled for disability Using Deceased Brother’s SSN
               beneﬁts in 2004 claiming that he was not able    A Texas man with a criminal record assumed
               to work due to physical impairments. SSA         his deceased brother’s identity and used his
               approved his application and he collected        brother’s SSN for work purposes. Under
               benefits for over 3 years. OI investigated       this assumed record, the man endorsed and
               his earnings and determined that the             negotiated checks to collect Social Security
               beneﬁciary never stopped working, that he had    disability benefits from November 2002
               commissioned a new 40 foot lobster ﬁshing        through December 2007. After receiving a
               boat while collecting disability beneﬁts, and    credible allegation and investigating the matter,
               that he continued to earn a signiﬁcant income.   OCIG initiated a CMP action against the man
               OCIG successfully negotiated a settlement        for his false representations of his SSN. The
               whereby the ﬁsherman paid a $10,000 penalty      man agreed to pay a lump sum penalty of
               and a $70,979 assessment in lieu of damages      $15,000 to the Social Security Trust Fund.
               in a lump sum payment.

               Seattle Locksmith Agrees to Pay $47,000
               A Seattle man working as a locksmith was
               awarded disability benefits based on back
               problems. He owned a small business, and
               handled many subcontracting locksmith jobs
               in the area. The subject ﬁled work activity
               reports with SSA in June 2002 and in May
               2005 in which he under-reported his work
               activity and income from 2000 through 2002
               claiming that no one would hire him.
               OI began looking into the matter in 2005.
               The investigation revealed that the subject
               had been working numerous small jobs for
               various employers during those years, and
               one of those employers provided records
               showing the money they had paid him. In


30 •   Value                                                               October 1, 2008–March 31, 2009
                                                             Semiannual Report to Congress




People                                           Human Capital Planning and
The third goal of the OIG Strategic Plan is
                                                 Management
People. The collective eﬀort of our employees    We actively pursue and work to retain the
continues to be the driving force behind this    best possible employees. First, our budget and
organization’s success in meeting its mission.   staﬃng plan forecasts employee departures
We provide an encouraging and rewarding          based on historical trends and human resource
work experience with the goal of retaining       data, which allows us to establish optimal
these exceptional individuals. OIG leadership    timeframes for recruiting new employees.
fosters an environment where employees can       Moreover, OIG managers monitor staﬃng
realize their potential through training and     to ensure that vacant positions are filled
developmental programs. Each year, OIG           promptly, ensuring that OIG components
components convene training conferences to       have the ability to fulfill their respective
inform their employees about new procedures      missions.
at various levels of our organization. In
addition, the OIG Organizational Health          Our human capital specialists and recruiters
Committee conducts an annual assessment          participate in job and career fairs nationwide.
of employee satisfaction levels and addresses    These events target underrepresented groups
employee concerns.                               in the labor market, allowing us to maintain
                                                 a truly diverse workforce. Once we identify
Budget                                           the best candidates, we employ a structured
                                                 interview process to fairly assess their
For FY 2009, our annual appropriation is qualiﬁcations. Through these eﬀorts, we have
$98 million, which supports an estimated hired 21 employees through the ﬁrst half of
end-of- year staﬃng level of 598. We also FY 2009.
received a $2 million appropriation available
                                                 Also, of the eight participants in OIG’s
through September 30, 2012 for salaries and
                                                 inaugural Leadership Development Program,
expenses necessary for oversight and audit
                                                 which was launched in FY 2008, two have
of programs, projects, and activities funded
                                                 since been accepted into SSA’s SES Candidate
in the Recovery Act legislation. The salaries
                                                 Development Program and three have
and beneﬁts of our employees accounts for
                                                 been promoted within OIG to leadership
88 percent of our spending. We will use the
                                                 positions.
remaining 12 percent for necessary expenses
such as travel, training, communications,
reimbursable work authorizations and Information Technology
general procurements, as well as to provide
                                                 We provide and maintain most of our own
for basic infrastructure needs such as rent and
                                                 information technology (IT) systems. Our
interagency service agreements. The FY 2009
                                                 IT specialists value state-of-the-art tools and
budget supports our eﬀorts to meet and exceed
                                                 place a high priority on ensuring that our
our expectations set forth in our Strategic Plan
                                                 employees have the latest proven technologies
for Fiscal Years 2006 – 2010, Fourth Edition.
                                                 with which to perform their work.
The goals and accomplishments measured in
our Strategic Plan are also published in the During this reporting period, OIG software
Annual Congressional Budget Justiﬁcation. specialists worked to improve mission critical

October 1, 2008–March 31, 2009                                                                     People • 31
                Semiannual Report to Congress




                OIG applications including implementation         give us the chance to educate and inspire public
                of additional enhancements to our National        conﬁdence in Federal programs.
                Investigative Case Management System,
                which is already a model for investigative case   During this reporting period, Inspector
                management across the federal government.         General Patrick P. O’Carroll, Jr. spoke
                We have also automated other administrative       to seminar attendees at the Federal Bar
                and business processes and will continue to       Association in Chicago on “Immigration
                proceed in this direction to save both time       Enforcement and Social Security: The IG
                and money.                                        Perspective.” In addition, the Inspector General
                                                                  Reform Act of 2008 created the Council of
                In support of the President’s goal to expand      Inspectors General on Integrity and Eﬃciency,
                electronic services, we maintain an Internet      merging the former President’s Council
                website that is both informative and useful       on Integrity and Efficiency and Executive
                to the public. Citizens using our web-based       Council on Integrity and Eﬃciency. As Chair
                services will ﬁnd them easy to understand. A      of the Investigations Committee, one of the
                workgroup comprised of auditors, investigative    CIGIE’s seven committees, Inspector General
                personnel, attorneys, and administrative          O’Carroll has helped to guide the transition to
                specialists continuously monitors the OIG         the newly formed CIGIE structure.
                website to ensure that all information is
                accurate and up-to-date.                        The following are other examples of outreach
                                                                conducted by OIG oﬃcials and personnel.
                Finally, our IT staﬀ analyzes industry trends  The Resident Agent-in-Charge of
                to ﬁnd new technologies which may enhance          our Batavia, New York office made
                our business processes. During this reporting      presentations on career opportunities in
                period, we have continued to expand the use of     the Federal government to the New York
                virtual technologies in our server environment     State Police, Monroe County Sheriﬀ ’s
                and have begun to explore virtualization of our    Oﬃce, and Brockport, New York Police
                desktop and mobile computing platforms to          Department Police Explorer Posts. Also,
                reduce hardware and deployment costs and           he participates in the Spencerport, New
                enhance data security. OIG IT Specialists          York High School career program and,
                continue to meet the challenge of providing        in collaboration with the Spencerport
                a variety of IT support services for about 70      Continuing Education Department,
                OIG oﬃces spread throughout the country.           provides free classes at night and on
                                                                   weekends on Federal job opportunities
                Outreach Eﬀorts                                    and navigating the application process.
                We are always seeking new ways to reach  An agent from our Detroit, Michigan
                out to the wider Federal community as well         oﬃce volunteers as an “Admissions Field
                as to members of the public. In a variety of       Representative” for the U.S. Military
                venues, we share our mission of promoting          Academy at West Point. He assists
                integrity and excellence in Social Security        in the selection of candidates, which
                programs and operations. These occasions           includes interviewing, visiting high
                are important opportunities to exchange            schools, attending college fair nights, and
                information and forge partnerships. They also      coordinating with U.S. Congressional
                                                                   staﬀs and the military.

32 •   People                                                                October 1, 2008–March 31, 2009
                                                             Semiannual Report to Congress




   An agent from our Charleston, West              An agent from our Denver Field Division
    Virginia oﬃce was a guest speaker for            volunteers in several South Dakota
    an computer forensics class at Marshall          organizations which provide assistance to
    University located in Huntington,                children. He helps raise and donate money
    West Virginia. The agent discussed the           to underprivileged children and families
    importance of computer forensics when            in the community, disabled children,
    conducting federal investigations.               and has participated in nationwide fund
   An agent from our San Antonio, Texas             raising projects that support the Shriners
    oﬃce mentors children participating in the       Hospitals for Children.
    Big Brother and Big Sisters program of
    Greater San Antonio.  Also, he volunteers    Hurricane Response Eﬀorts
    at organizations such as Community in
    Schools of San Antonio which is the          We continue to be actively involved in pursuing
    nation’s leading community-based drop        investigations of fraud related to Hurricanes
    out prevention network, the Youth            Katrina and Rita and helping SSA prepare
    Against Gang Activity Program, the San       for similar events in the future. Because the
    Antonio Food Bank, Family Services of        SSN is a key identiﬁer for various disaster
    San Antonio which is the oldest human        assistance programs, we have been a critical
    service agency in San Antonio, and serves    partner in multi-agency investigations of this
    as a board member and mentor volunteer       type of fraud. In fact, we have assigned an
    for the Autism Society of Greater            agent to the DOJ’s Hurricane Katrina Fraud
    San Antonio.                                 Task Force in Louisiana, where we have been
                                                 involved in numerous joint investigations of
   An agent from our Lexington, Kentucky        hurricane-related fraud.
    office is currently participating in
    the Central Kentucky Economic                Since the inception of the Task Force, OI
    Empowerment Project (CKEEP) as a tax         has opened 72 investigations and secured 58
    preparation volunteer. CKEEP partners        indictments and 56 convictions of individuals
    with the Internal Revenue Service to         for hurricane-related fraud. For this reporting
    provide free tax preparation for low-        period, our investigators opened one case and
    income families, raise awareness about       secured four convictions.
    the Earned Income Tax Credit and help
                                                 Following are highlights of our hurricane-
    families build assets.
                                                 related investigative activity during this
   An agent from our Miramar, Florida oﬃce      reporting period.
    participated in a Thanksgiving food drive
    that distributed food to needy families      Louisiana Department of Labor Employee
    and a Christmas holiday toy drive for        Convicted of Bribery and Extortion
    underprivileged children in the South        Our Baton Rouge oﬃce investigated a contract
    Florida area. Also, he was involved in       employee of the Louisiana Department of
    a blood drive beneﬁting South Florida        Labor (LDOL). The investigation determined
    cancer patients and a clothing drive         that the individual accepted bribes and
    for victims of the hurricanes which          extorted money in order to facilitate and
    devastated Haiti.


October 1, 2008–March 31, 2009                                                                     People • 33
                Semiannual Report to Congress




                process fraudulent Disaster Unemployment
                Assistance (DUA) payments. The employee
                conspired with several individuals who ﬁled
                more than 80 fraudulent DUA claims, and
                obtained more than $150,000 in DUA
                beneﬁts. In November 2008, after pleading
                guilty to extortion under the color of law, the
                man was sentenced to 18 months’ incarceration
                and 3 years’ supervised release.                               A Special
                                                                              Thank You
                Louisiana Man Files Fraudulent Disaster
                Unemployment Assistance Claim
                                                                          The diligent work,
                Our Baton Rouge investigated a resident of
                Jackson, Louisiana who submitted a fraudulent          outstanding efforts, and
                claim with the DUA. The individual claimed           many contributions of our
                that he lost his job as a result of Hurricane
                Katrina. The investigation revealed that the
                                                                      entire OIG staff make the
                man ﬁled a claim with DUA using an SSN              accomplishments highlighted
                that did not belong to him and received             in this Semiannual Report to
                $4,410 in DUA benefits. The man pled
                guilty to access device fraud and in October              Congress possible.
                2008 was sentenced to 3 years’ probation and
                was ordered to pay restitution of $4,410 to         We would like to thank them
                the LDOL.                                           for their dedicated spirit and
                Man Claims Job Loss Due to Hurricane                       many successes.
                Katrina
                Agents from our Baton Rouge office
                investigated a man who used a fraudulent
                SSN to file for DUA benefits with the
                LDOL. On his application, the man falsely
                claimed that he lost his job due to Hurricane
                Katrina. Based on his application, he received
                $10,312 in DUA beneﬁts. In January 2009,
                after pleading guilty to access device fraud, the
                man was sentenced to 5 years’ probation and
                was ordered to pay restitution of $10,312 to
                the LDOL.




34 •   People                                                           October 1, 2008–March 31, 2009
                                 Semiannual Report to Congress




          Reporting Requirements
                   and
                Appendices




October 1, 2008–March 31, 2009                 Reporting Requirements • 35
             Semiannual Report to Congress




             Reporting Requirements
             This report meets the requirements of the Inspector General Act of 1978, as amended, and
             includes information mandated by Congress.


                    Section                           Requirement                          Page(s)

               Section 4(a)(2)      Review of legislation and regulations                    N/A


               Section 5(a)(1)      Signiﬁcant problems, abuses, and deﬁciencies            9–34

               Section 5(a)(2)      Recommendations with respect to signiﬁcant              9–14
                                    problems, abuses, and deﬁciencies                       21–23

               Section 5(a)(3)      Recommendations described in previous Semiannual       Appendix
                                    Reports on which corrective actions are incomplete      F&G
                                                                                            14–20
               Section 5(a)(4)      Matters referred to prospective authorities and the
                                                                                            23–28
                                    prosecutions and convictions that have resulted
                                                                                            33–34
               Section 5(a)(5) &
                                    Summary of instances where information was refused       N/A
               Section 6(b)(2)

               Section 5(a)(6)      List of audits                                        Appendix B

                                                                                             9–14
               Section 5(a)(7)      Summary of particularly signiﬁcant reports
                                                                                            21–23

                                    Table showing the total number of audit reports and
               Section 5(a)(8)                                                            Appendix A
                                    total dollar value of questioned costs

                                    Table showing the total number of audit reports and
               Section 5(a)(9)                                                            Appendix A
                                    total dollar value of funds put to better use

                                    Audit recommendations more than 6 months old for
               Section 5(a)(10)                                                           Appendix A
                                    which no management decision has been made

                                    Signiﬁcant management decisions that were revised
               Section 5(a)(11)                                                              N/A
                                    during the reporting period

                                    Signiﬁcant management decisions with which the
               Section 5(a)(12)                                                           Appendix D
                                    Inspector General disagrees




36 •   Appendices                                                      October 1, 2008–March 31, 2009
                                                                Semiannual Report to Congress




Appendix A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or
redirection of questioned and unsupported costs. Questioned costs are those costs that are
challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that
are questioned because they are not justiﬁed by adequate documentation. This information is
provided in accordance with P.L. 96- 304 (the Supplemental Appropriations and Recession Act
of 1980) and the Inspector General Act of 1978, as amended.

                 Reports with Questioned Costs for the Reporting Period
                                  October 1, 2008 – March 31, 2009
                                                                                   Value
                                                     Number Value Questioned
                                                                                Unsupported
     A. For which no management decision
        had been made by the commencement              19      $1,324,993,528      $2,095,395
        of the reporting period.
     B. Which were issued during the
                                                       6a        $130,436,678         $26,233
        reporting period.


         Subtotal (A + B)                              25      $1,455,430,206      $2,121,628


         Less:


     C. For which a management decision was
                                                       12      $1,310,756,655        $247,757
        made during the reporting period.


         i. Dollar value of disallowed costs.          9          $88,704,930        $247,757


         ii. Dollar value of costs not disallowed.     3       $1,222,051,725               $0

     D. For which no management decision
        had been made by the end of the                13        $144,673,551      $1,873,871
        reporting period.


a.
     See Reports with Questioned Costs in Appendix B of this report.




October 1, 2008–March 31, 2009                                                               Appendices • 37
             Semiannual Report to Congress




             The following chart summarizes SSA’s response to our recommendations that funds be put to
             better use through cost avoidances, budget savings, etc.


                             Reports with Recommendations that Funds Be Put to Better Use
                                  Reporting Period October 1, 2008 – March 31, 2009

                                                                                  Number     Dollar Value

                  A. For which no management decision had been made by
                                                                                     10      $558,029,282
                     the commencement of the reporting period.

                  B. Which were issued during the reporting period.                  5a      $320,902,901


                     Subtotal (A + B)                                                15      $878,932,183


                     Less:

                  C. For which a management decision was made during the
                     reporting period.
                     i. Dollar value of recommendations that were agreed to
                                                                                     7       $213,802,743
                        by management.
                                                                                             $213,802,743
                     (a) Based on proposed management action.                        7


                     (b) Based on proposed legislative action.                       0                 $0


                     ii. Dollar value of costs not agreed to by management.          2        $222,381,907


                     Subtotal (i + ii)                                               9       $436,184,650

                  D. For which no management decision had been made by
                                                                                     6       $442,747,533
                     the end of the reporting period.


             a.
                  See Reports with Funds Put to Better Use in Appendix B of this report.




38 •   Appendices                                                             October 1, 2008–March 31, 2009
                                                         Semiannual Report to Congress




Appendix B: Reports Issued
                    Reports with Non-Monetary Findings
                         October 1, 2008 – March 31, 2009

 Audit Number                            Report                            Issue Date
                 Management Advisory Report: Single Audit of the State
 A-77-09-00001                                                              10/2/2008
                 of Minnesota for the Fiscal Year Ended June 30, 2007
                 Management Advisory Report: Single Audit of the State
 A-77-09-00002                                                              10/3/2008
                 of Washington for the Fiscal Year Ended June 30, 2007
                 Congressional Response Report: Customer Service Issues
 A-12-08-28080                                                             10/27/2008
                 at the Dover Hearing Oﬃce
                 Fiscal Year 2008 Inspector General Statement on the
 A-02-09-19074   Social Security Administration’s Major Management and      11/5/2008
                 Performance Challenges
                 Management Advisory Report: Single Audit of the
 A-77-09-00003   Commonwealth of Massachusetts for the Fiscal Year          11/5/2008
                 Ended June 30, 2007

 A-15-08-18087   Fiscal Year 2008 Financial Statement Audit Oversight       11/7/2008

                 Management Advisory Report: Single Audit of the State
 A-77-09-00004                                                             11/21/2008
                 of Texas for the Fiscal Year Ended August 31, 2007
                 Quick Response Evaluation: Eﬀectiveness of Educational
 A-03-07-17105                                                             12/15/2008
                 Correspondence to Employers
                 Quick Response Evaluation: Federal Protective Service
 A-15-08-28125                                                             12/18/2008
                 Basic Security Fees
                 Management Advisory Report: Single Audit of the
 A-77-09-00005   Commonwealth of Virginia for the Fiscal Year Ended June   12/18/2008
                 30, 2007

 A-01-08-18011   Disability Claims Overall Processing Times                12/19/2008
                 The Social Security Administration’s Oversight of MDRC
 A-15-08-18010                                                             12/22/2008
                 Contract No. SS00-06-60075
                 Costs Claimed by the Virginia Commonwealth
 A-15-09-29064   University Contract Number SS00-04-60097 (Limited           1/5/2009
                 Distribution)
                 Earnings Records with Multiple Employer Identiﬁcation
 A-08-08-18002                                                               1/5/2009
                 Numbers
                 Follow-up: The Social Security Administration’s
 A-13-08-18077                                                              1/20/2009
                 Procedures for Addressing Employee-related Allegations
                 Quick Response Evaluation: Sources of Erroneous Death
 A-06-09-29095                                                               2/4/2009
                 Entries Input into the Death Master File




October 1, 2008–March 31, 2009                                                     Appendices • 39
             Semiannual Report to Congress




                                  Reports with Non-Monetary Findings
                                       October 1, 2008 – March 31, 2009
                               Quick Response Evaluation: Social Security
               A-15-09-29076   Administration Employees Who Were Absent                   2/18/2009
                               Without Leave
                               Administrative Costs Claimed by the Kentucky Disability
               A-08-08-18059                                                              2/20/2009
                               Determination Services
                               Assignment of Social Security Numbers to Individuals in
               A-08-08-18098   the Commonwealth of the Northern Mariana Islands and       2/25/2009
                               American Samoa
               A-08-08-18079   Management Advisory Report: R-1 Religious Workers’          3/9/2009
                               Use of Social Security Numbers
                               Quick Response Evaluation: The Social Security
               A-44-09-19098                                                              3/16/2009
                               Administration’s Ability to Address Future Processing
                               Requirements (Limited Distribution)
               A-77-09-00008   Management Advisory Report: Single Audit of the State      3/17/2009
                               of New York for the Fiscal Year Ended March 31, 2007
               A-15-09-19021   Administrative Costs Claimed by the Pennsylvania           3/19/2009
                               Bureau of Disability Determination
                               Physical Security at the Oﬃce of Disability Adjudication
               A-12-08-18072                                                              3/26/2009
                               and Review’s Headquarters Building (Limited
                               Distribution)
               A-77-09-00009   Management Advisory Report: Single Audit of the State      3/26/2009
                               of Illinois for the Fiscal Year Ended June 30, 2007
               A-77-09-00010   Management Advisory Report: Single Audit of the State      3/26/2009
                               of Maine for the Fiscal Year Ended June 30, 2007
               A-01-08-18023   The Social Security Administration’s Listing of            3/27/2009
                               Impairments
                               Quick Response Evaluation: Impact of State Employee
               A-01-09-29137                                                              3/27/2009
                               Furloughs on the Social Security Administration’s
                               Disability Programs




40 •   Appendices                                                     October 1, 2008–March 31, 2009
                                                          Semiannual Report to Congress




                       Reports with Questioned Costs
                        October 1, 2008 – March 31, 2009

Audit Number     Issue Date                     Report                    Dollar Amount

                                 Individual Volume Representative
A-15-08-28093    11/4/2008                                                       $3,965
                                 Payee in Hartford, Connecticut


                                 Payments to Spouses Eligible for
A-09-08-18007   12/16/2008                                                 $123,735,700
                                 Higher Retirement Beneﬁts

                                 Management Advisory Report: Single
A-77-09-00006    2/4/2009        Audit of the State of Montana for the          $90,374
                                 2-Year Period Ended June 30, 2007

                                 Quick Response Evaluation:
A-02-09-29007    2/10/2009       Eﬀectiveness of Title XVI Installment       $5,053,700
                                 Agreements

                                 Single Audit of the Commonwealth of
A-77-09-00007    3/19/2009       Pennsylvania for the Fiscal Year Ended      $1,568,644
                                 June 30, 2007

                                 Administrative Costs Claimed by
A-07-09-19005    3/30/2009       the Utah Disability Determination              $10,528
                                 Services


                                 TOTAL                                     $130,462,911




October 1, 2008–March 31, 2009                                                       Appendices • 41
             Semiannual Report to Congress




                                 Reports with Funds Put to Better Use
                                     October 1, 2008 – March 31, 2009

              Audit Number    Issue Date                    Report                    Dollar Amount

                                             Contract with Lockheed Martin
              A-04-08-18066   11/20/2008     Government Services, Inc., for Digital      $1,615,464
                                             Imaging Services

                                             Payments to Spouses Eligible for
              A-09-08-18007   12/16/2008                                               $208,996,900
                                             Higher Retirement Beneﬁts


                                             Indirect Costs Claimed by the Texas
              A-06-08-18092   1/26/2009                                                  $9,790,704
                                             Disability Determination Services

                                             Contract for the Beneﬁt Oﬀset
              A-05-08-18041   3/12/2009      National Demonstration Project with         $5,300,000
                                             Abt Associates, Incorporated

                                             Fugitive Felons Serving as
              A-01-08-18021   3/31/2009                                                 $95,199,833
                                             Representative Payees


                                             TOTAL                                     $320,902,901




42 •   Appendices                                                    October 1, 2008–March 31, 2009
                                                            Semiannual Report to Congress




Appendix C: Reporting Requirements Under
the Omnibus Consolidated Appropriations Act
of FY 
To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997,
P.L. 104-208, we are providing requisite data for the ﬁrst half of FY 2009 from the Oﬃces of
Investigations and Audit in this report.
Office of Investigations
We are reporting over $24 million in SSA funds as a result of our investigative activities in
this reporting period (10/1/08 – 3/31/09). These funds are broken down in the table below.


                                 Investigative Activities

                      1st Quarter                2nd Quarter
                                                                                Total
                  10/1/08 – 12/31/08           1/1/09 – 3/31/09

    Court
   Ordered             $5,814,165                  $6,057,189                $11,871,354
  Restitution

  Recoveries           $5,683,723                  $5,159,791                $10,843,514


     Fines              $468,642                   $1,035,035                $1,503,677

 Settlements/
                        $433,560                    $289,179                  $722,739
  Judgments

   TOTAL              $12,400,090                  $12,541,194               $24,941,284



Office of Audit
SSA management has informed us that it has completed implementing recommendations
from 1 audit report during this time period valued at over $223 million.

The Social Security Administration’s Income and Resource Veriﬁcation Process for
Individuals Applying for Help with Medicare Prescription Drug Plan Costs
(A-06-06-16135, 2/19/2008)
We recommended that SSA ensure its redetermination process identiﬁes and terminates
improperly awarded subsidies currently in eﬀect. The implemented value of this recommendation
is $223,594,840.

October 1, 2008–March 31, 2009                                                             Appendices • 43
             Semiannual Report to Congress




             Appendix D: Significant Management Decisions
             With Which the Inspector General Disagrees
             There are no signiﬁcant management decisions with which the Inspector General disagrees.




44 •   Appendices                                                   October 1, 2008–March 31, 2009
                                                                    Semiannual Report to Congress




Appendix E: Collections from Investigations
and Audits
The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and oﬀsets achieved as a result
of OIG activities each semiannual period.
Office of Investigations
                 Total Restitution Reported by DOJ as Collected for SSA
                                 Total Number of                                         Total
                                                            Court Ordered
                               Individuals Assigned                                   Restitution
              FY                                          Restitution for This
                                  Court Ordered                                       Collected by
                                                                Period
                                    Restitution                                           DOJ

             2007                        655                   $26,435,626              $898,7641

             2008                        765                   $22,975,145              $898,7642

            2009
                                         300                   $11,871,354            See Footnote 2
     (10/1/08 - 3/31/09)

           TOTAL                        1,720                  $61,282,125              $898,764

1
    Reﬂects collection for October 1, 2006– June 30, 2007.
2
    DOJ advised it is currently migrating collection data to a new computer system and the data
     is unavailable at this time. Last available collection data is for the period ending June 30, 2007.


                       Recovery Actions Based on OI Investigations

                              Total Number of Recovery
            FY                                                           Amount for Recovery
                                  Actions Initiated

           2007                           2,514                                         $44,081,776

           2008                           1,862                                         $40,040,214

           2009                            476                                          $10,843,514

         TOTAL                            4,852                                         $94,965,504




October 1, 2008–March 31, 2009                                                                      Appendices • 45
               Semiannual Report to Congress




               Office of Audit
               The following chart summarizes SSA’s responses to our recommendations for the recovery or
               redirection of questioned and unsupported costs. This information is prepared in coordination
               with SSA’s management oﬃcials and was current as of March 31, 2009.


                                     SSA’s Responses to OIG’s Recommendations
                               Recovery or Redirection of Questioned and Unsupported Costs

                Reports   Questioned/                                   Amount
                 with                              Management        Collected or to Amount Written-
        FY                Unsupported                                                                        Balance2
               Questioned                          Concurrence                       Oﬀ /Adjustments
                             Costs                                   be Recovered
                 Costs

       2007            36       $1,261,104,045      $878,975,863      $506,921,717        $363,766,409 $390,415,919

       2008            28       $2,409,411,231      $437,744,569      $189,598,744     $1,922,007,212     $297,805,275

       2009             6         $130,462,911         $5,057,665       $5,053,700                   $0   $125,409,211


       TOTAL           70      $3,800,978,187 $1,321,778,097         $701,574,1611     $2,285,773,621     $813,630,405


               1
                   The amounts in the table regarding collections, recoveries, and write-oﬀs/adjustments were not
                   veriﬁed by the OIG.
               2
                   Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-
                   Oﬀ/Adjustments




46 •   Appendices                                                             October 1, 2008–March 31, 2009
                                                           Semiannual Report to Congress




Appendix F: Significant Monetary
Recommendations From Prior FYs for Which
Corrective Actions Have Not Been Completed
Controls over Miscellaneous Payments Made Through the Single Payment System
(A-09-07-17119, 10/25/2007)
Results of Review: Our audit disclosed that SSA’s controls to prevent or detect improper or
duplicate miscellaneous payments were generally eﬀective. However, SSA needed to improve
its controls over the retention of supporting documentation for miscellaneous Single Payment
System (SPS) payments and the recording of Social Security numbers for SPS payments issued
to non-beneﬁciaries. Based on our review of a random sample of 275 death underpayments
from the population of 327,580 non beneﬁciaries, we found that SSA
   — improperly paid an estimated $7.3 million to 11,912 non-beneﬁciaries;
   — did not retain adequate supporting documentation for an estimated $98 million in
       payments made to 50,030 non-beneﬁciaries;
   — did not obtain or record the Social Security numbers (SSN) for 176,029 (53 percent)
       of the 332,680 death underpayments issued to non-beneﬁciaries; and
   — paid improper duplicate payments of $27,480 to 3 individuals.
Recommendation: SSA should establish an appropriate control to ensure the SSA-1724 or
other written application for a death underpayment is retained.
Valued at: $98,280,016 in questioned costs.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA responded that they will explore appropriate controls to ensure
retention of documentation for death underpayments. SSA will also establish appropriate
controls as resources permit.

Improper Payments Resulting from the Annual Earnings Test (AET)
(A-09-07-17066, 8/31/2007)
Results of Review: Our audit disclosed that SSA did not adjust the beneﬁt payments for all
beneﬁciaries who were subject to AET. Based on a random sample of 250 beneﬁciaries for
Calendar Years 2002 through 2004, we found SSA overpaid $393,117 to 112 beneﬁciaries
and underpaid $44,264 to 16 beneﬁciaries. As a result, we estimate SSA overpaid about $313
million to 89,300 beneﬁciaries and underpaid about $35 million to 12,800 beneﬁciaries. These
payment errors primarily occurred because SSA did not process all records identiﬁed by its
Earnings Enforcement Operation.
Recommendation: SSA should review and process, as appropriate, all Earnings Enforcement
Operation selections pending in the Oﬃce of Quality Performance since 1996.



October 1, 2008–March 31, 2009                                                          Appendices • 47
             Semiannual Report to Congress




             Valued at: $348,680,140 in questioned costs.
             Agency Response: SSA agreed with the recommendation.
             Corrective Action: SSA responded that accounts for tax year (TY) 2004 are now complete.
             SSA will continue to work on accounts for tax year 2005 and forward. A sample of
             TIER II enforcement selections for TYs prior to 2004 have been reviewed. The draft strategy
             for handling pending TIER II enforcement selections for TYs prior to 2004 continues to
             be evaluated.

             Supplemental Security Income Recipients Eligible as Disabled Adult Children
             (DAC) Under the Old-Age, Survivors and Disability Insurance Program
             (A-13-07-17073, 4/30/2007)
             Results of Review: Our objective was to determine whether SSI recipients who previously
             received OASDI beneﬁts as child beneﬁciaries were eligible for additional OASDI beneﬁts.
             Our analysis of information in SSA’s Supplement Security and Master Beneﬁciary Records
             found there were SSI recipients who received OASDI beneﬁts as child beneﬁciaries who
             appeared to be eligible for additional OASDI beneﬁts. Of the 200 SSI recipients we reviewed,
             137 appeared to be DAC cases and eligible for additional OASDI beneﬁts. As such, we estimate
             about 4,047 of the 5,908 SSI recipients we identiﬁed may be eligible for additional OASDI
             beneﬁts. In 2007, we estimated the OASDI underpayments due was about $23 million.
             Recommendation: SSA should determine whether the 5,908 Supplemental Security Income
             (SSI) recipients are eligible for Old Age Survivors and Disability Income (OASDI) beneﬁts as
             Disabled Adult Children (DAC) and calculate the OASDI underpayments due the recipients
             as appropriate.
             Valued at: $22,937,603 in funds put to better use.
             Agency Response: SSA agreed with the recommendation.
             Corrective Action: SSA responded that its Oﬃce of Operations has recently identiﬁed a
             similar workload with much of the same criteria as that used to detect the 5,908 recipients
             included in this audit. All cases were released to the regions to work. As of December 31, 2007,
             approximately 30 percent of the cases are complete. Operations continue to work the claims
             identiﬁed as potential DAC cases.

             Signiﬁcant Monetary Recommendations From Prior
             Semiannual Report to Congress for Which Recent Corrective
             Actions Have Been Made
             There are no signiﬁcant management decisions from the prior semiannual report for which
             recent corrective actions were made.



48 •   Appendices                                                        October 1, 2008–March 31, 2009
                                                              Semiannual Report to Congress




Appendix G: Significant Non-Monetary
Recommendations From Prior FYs for Which
Corrective Actions Have Not Been Completed
Controls Over Employee Veriﬁcation Programs (A-03-06-15036, 9/4/2007)
Results of Review: We assessed the controls over SSA’s employee veriﬁcation programs. We
found that SSA’s Social Security Number Veriﬁcation Service (SSNVS) had adequate access
and monitoring controls. However, we found that SSA needed to establish more eﬀective
controls over access to its E-Verify programs, and that the Department of Homeland Security
(DHS) needed to establish more eﬀective controls over E-Verify. In addition, we determined
that feedback responses provided to employers were inconsistent among the veriﬁcation
programs. Finally, we found that both EVS programs and DHS’ E-Verify lacked eﬀective
controls related to monitoring employers’ use of the programs. Because of the vulnerabilities
and inconsistencies we found among these programs, SSA’s data could be susceptible to
unauthorized access as well as inadvertent disclosure of personally identiﬁable information
to unauthorized users.
Recommendation: SSA should ensure feedback responses provided to employers for the
four veriﬁcation programs are consistent as it relates to (a) name and SSN matches and (b)
death indicator responses.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA responded that its current disclosure policy allows us to share the
same data with employers via any SSN veriﬁcation process. The routine use established
for the applicable Privacy Act system of records, the SSN Master File (that is, Numident
records), allows information from that system to be disclosed to employers consistent with
their wage reporting responsibilities. Feedback response diﬀerences between the E-Verify and
the various SSN veriﬁcation processes were established for diﬀerent purposes; therefore, it may
be appropriate to maintain diﬀerent matching protocols. E-Verify was designed to verify work
eligibility status (determined by citizenship status) and is driven by Department of Homeland
Security needs. The other programs verify only the SSN, name and date of birth match (and
check for death information) for wage reporting; citizenship status is not checked. SSA noted,
however, that a future release of the Social Security Number Veriﬁcation System (SSNVS)
will return successful and unsuccessful matches to the user. This brings the functionality of
E-Verify and SSNVS in line with each other.
Lastly, the implementation of this recommendation could be aﬀected by the outcomes for
several pending developments concerning the E-Verify program, as several States are enacting
legislation requiring that employers use E-Verify. Although comprehensive immigration
reform legislation did not pass, there are other pending legislative proposals mandating the
use of E-Verify. If the legislation is passed, or E-Verify is otherwise implemented, the need for
other SSN veriﬁcation programs for employers may diminish, as all employers will be required
to use E-Verify for new hires.

October 1, 2008–March 31, 2009                                                               Appendices • 49
             Semiannual Report to Congress




             Signiﬁcant Non-Monetary Recommendations From Prior
             Semiannual Report to Congress for Which Recent Corrective
             Action Has Been Made
             The Social Security Administration’s Incident Response and Reporting System
             (A-14-07-17070, 8/3/2007)
             Recommendation: SSA should align policy, procedures and practices for reporting personally
             identiﬁable information (PII) incidents including the Agency’s escalation policy to the
             US-CERT.
             Corrective Action: SSA responded that they have made changes to ensure that practices and
             procedures for reporting and escalation of PII incidents align with the US-CERT.

             Social Security Administration’s Management of Information Technology Projects
             (A-14-07-17099, 7/26/2007)
             Recommendation: SSA should implement a Post Implementation Reviews (PIR) process as
             required by the Oﬃce of Management and Budget and, to the extent possible, leverage SSA’s
             current processes.
             Corrective Action: SSA responded that they have implemented a PIR that defines
             procedures, provides adequate resources, and assigns individuals who are familiar with the
             post-implementation process.




50 •   Appendices                                                    October 1, 2008–March 31, 2009
                                                         Semiannual Report to Congress




Glossary of Acronyms
Abt            Abt Associates
AC             Appeals Council
ALJ            Administrative Law Judge
BIC-D          National Deceased Payee Project
BOND           Beneﬁt Oﬀset National Demonstration
CDI            Cooperative Disability Investigative
CIGIE          Council of Inspectors General on Integrity and Eﬃciency
CKEEP          Central Kentucky Economic Empowerment Project
CMP            Civil Monetary Penalty
CNMI           Commonwealth of the Northern Mariana Islands
DC             Double Check Negotiation
DDS            Disability Determination Services
DHS            Department of Homeland Security

DI             Disability Insurance
DMF            Death Master File
DOJ            Department of Justice
DOL            Department of Labor
DUA            Disaster Unemployment Assistance
ECIE           Executive Council on Integrity and Eﬃciency
EDR            Electronic Death Registration
FI             Financial Institutions
FY             Fiscal Year
ICE            Immigration and Customs Enforcement
IO             Immediate Oﬃce
IRS            Internal Revenue Service
IT             Information Technology
LDOL           Louisiana Department of Labor
the Listings   Listing of Impairments




October 1, 2008–March 31, 2009                                                      Glossary • 51
              Semiannual Report to Congress




              MEF           Master Earnings File
              NCC           National Computer Center
              NH            Number Holder
              OA            Oﬃce of Audit
              OASDI         Old-Age, Survivors, and Disability Insurance
              OCIG          Oﬃce of the Counsel to the Inspector General
              ODAR          Oﬃce of Disability Adjudication and Review
              OER           Oﬃce of External Relations
              OI            Oﬃce of Investigations
              OIG           Oﬃce of the Inspector General
              OQAPR         Oﬃce of Quality Assurance and Professional Responsibility
              OTRM          Oﬃce of Technology and Resource Management
              PCIE          President’s Council on Integrity and Eﬃciency
              PII           Personally Identiﬁable Information
              SAC           Special Agent-in-Charge
              SSA           Social Security Administration
              SSI           Supplemental Security Income
              SSN           Social Security Number
              the Act       Social Security Act
              TY            Tax Year
              U.S.          United States




52 •   Glossary                                                       October 1, 2008–March 31, 2009
                                                         S ocia l Secu r it y A dmi n istr ation                 How to R eport Fr au d
                                                         O ffice of the Inspector Gener al

                                                                                                     The SSA OIG Fraud Hotline offers a means
                                                                                                     for you to provide information on suspected
                                                                         Mission Statement
                                                                                                   fraud, waste, and abuse. If you know of current
                                             By conducting independent and objective
                                                                                                     or potentially illegal or improper activities
                                            audits, evaluations and investigations, we
                                                                                                        involving SSA programs or personnel,
                                          inspire public confidence in the integrity and
                                                                                                          we encourage you to contact the
                                            security of SSA’s programs and operations
                                                                                                               SSA OIG Fraud Hotline.
                                           and protect them against fraud, waste, and
                                          abuse. We provide timely, useful and reliable             Call . . . . . . ---
                                            information and advice to Administration                Write . . . . . Social Security
                                                officials, Congress and the public.                                 Administration Office of the
                                                                                                                    Inspector General Attention: SSA
                                                                         Vision and Values
                                                                                                                    Fraud Hotline
                                             We strive for continual improvement in                                 P. O. Box  Baltimore, MD 
                                           SSA’s programs, operations and management
                                           by proactively seeking new ways to prevent               Fax . . . . . . . --
                                          and deter fraud, waste and abuse. We commit               Internet . . www.socialsecurity.gov/oig
                                            to integrity and excellence by supporting
                                             an environment that provides a valuable
                                            public service while encouraging employee                To obtain additional copies of this report,
                                            development and retention and fostering                         please visit our website at
                                                     diversity and innovation.                              www.socialsecurity.gov/oig
                                                                                                                    SSA Pub. No. -




09-445-OIG_SARCspring_cover_alternate.indd Spread 2 of 2 - Pages(2, 3)                                                                                    4/24/2009 5:12:00 PM
                                                                                                                      S o c i a l S e c u r i t y A d m i n i st r at i o n
                                                                                                                   O f f i c e of t h e I n s p e c tor Ge n e r a l




                                                                                                              Semiannual Report to Congress
                                                                                                                      October 1, 2008 – March 31, 2009




                                                                         Report Fraud, Waste, and Abuse

                                                                         1–800–269–0271




                                                                            Social Security Administration
                                                                              Oﬃce of the Inspector General
                                                                                SSA Pub. No. 85-007



09-445-OIG_SARCspring_cover_alternate.indd Spread 1 of 2 - Pages(4, 1)                                                                                                        4/24/2009 5:11:52 PM
